<html>
<title> - STRENGTHENING WINDSTORM HAZARD MITIGATION: AN EXAMINATION OF PUBLIC AND PRIVATE EFFORTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                     STRENGTHENING WINDSTORM HAZARD
                     MITIGATION: AN EXAMINATION OF
                       PUBLIC AND PRIVATE EFFORTS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 9, 2004

                               __________

                           Serial No. 108-40

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



91-214              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
JOE BARTON, Texas                    NICK LAMPSON, Texas
KEN CALVERT, California              JOHN B. LARSON, Connecticut
NICK SMITH, Michigan                 MARK UDALL, Colorado
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
VERNON J. EHLERS, Michigan           MICHAEL M. HONDA, California
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
GEORGE R. NETHERCUTT, JR.,           LINCOLN DAVIS, Tennessee
    Washington                       SHEILA JACKSON LEE, Texas
FRANK D. LUCAS, Oklahoma             ZOE LOFGREN, California
JUDY BIGGERT, Illinois               BRAD SHERMAN, California
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
W. TODD AKIN, Missouri               DENNIS MOORE, Kansas
TIMOTHY V. JOHNSON, Illinois         ANTHONY D. WEINER, New York
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
J. RANDY FORBES, Virginia            DENNIS A. CARDOZA, California
PHIL GINGREY, Georgia                VACANCY
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas


                            C O N T E N T S

                            February 9, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy Neugebauer, Member, Committee 
  on Science, U.S. House of Representatives......................     7
    Written Statement............................................     8

Statement by Representative Dennis Moore, Member, Committee on 
  Science, U.S. House of Representatives.........................     9
    Written Statement............................................    10

                               Witnesses:

Dr. Ernest W. Kiesling, Professor of Civil Engineering, Texas 
  Tech University
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    23
    Financial Disclosure.........................................    23

Dr. Charles Meade, Senior Physical Scientist, RAND Corporation
    Oral Statement...............................................    24
    Written Statement............................................    26
    Biography....................................................    32

Dr. Bogusz Bienkiewicz, Professor, Department of Civil 
  Engineering, Colorado State University
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    42
    Financial Disclosure.........................................    43

Mr. Bryan L. Shofner, President, Shofner and Associates Insurance 
  Agency
    Oral Statement...............................................    44
    Written Statement............................................    46
    Biography....................................................    47
    Financial Disclosure.........................................    49

Discussion.......................................................    50

             Appendix 1: Additional Material for the Record

Wind Engineering Research and Outreach Plan to Reduce Losses Due 
  to Wind Hazards, February 2004, American Association for Wind 
  Engineering in collaboration with the American Society of Civil 
  Engineers......................................................    68

 
STRENGTHENING WINDSTORM HAZARD MITIGATION: AN EXAMINATION OF PUBLIC AND 
                            PRIVATE EFFORTS

                              ----------                              


                        MONDAY, FEBRUARY 9, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 1:30 p.m., at the 
Merket Alumni Center, Texas Tech University, Lubbock, Texas, 
Hon. Randy Neugebauer, presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            HEARING CHARTER

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     Strengthening Windstorm Hazard

                     Mitigation: An Examination of

                       Public and Private Efforts

                        MONDAY, FEBRUARY 9, 2004
                          1:30 P.M.-3:30 P.M.
                         MERKET ALUMNI CENTER,
                         TEXAS TECH UNIVERSITY,
                             LUBBOCK, TEXAS

1. Purpose

    On Monday, February 9, 2004, at 1:30 p.m., the House Science 
Committee will hold a field hearing to examine the status of windstorm 
hazard mitigation in the United States, and to consider the role of 
federal research and development in windstorm hazard reduction.

2. Witnesses

Dr. Charles Meade is a senior physical scientist with the RAND 
Corporation's Science and Technology Policy Institute in Washington, 
DC. He is the primary author of ``Assessing Federal Research 
Developments for Hazard Loss Reduction,'' a study prepared for the 
White House Office of Science and Technology Policy in 2003.

Dr. Ernst W. Kiesling is a Professor of Civil Engineering at Texas Tech 
University. Dr. Kiesling has 37 years of teaching, research, and 
administrative experience at Texas Tech University, including serving 
as Chairman of the Civil Engineering Department from 1969 to 1988. Dr. 
Kiesling was the first to develop an ``in-residence'' tornado shelter, 
providing occupant protection during tornadic events. The research 
provided the basis for a Federal Emergency Management Agency (FEMA) 
publication on in-residence shelter design.

Mr. Bryan Shofner is President of Shofner & Associates Insurance Agency 
in Lubbock, Texas. Mr. Shofner was named ``Young Agent of the Year'' in 
2001 by the Independent Insurance Agents of Texas. Mr. Shofner has been 
a longtime member of his local, State, and national independent 
insurance agents associations, including serving as President of the 
Lubbock Association of Insurance Agents.

Dr. Bogusz Bienkiewicz is a Professor of Civil Engineering at the 
Colorado State University Wind Engineering and Fluids Laboratory. Dr. 
Bienkiewicz is also the Vice President of the American Association for 
Wind Engineering, Secretary of the American Society of Civil Engineers 
Committee on Wind Effects, and Co-chairman of the International Wind 
Engineering Forum.

3. Overarching Questions

    The hearing will address the following overarching questions:

        1.  How vulnerable is the built environment in the United 
        States to windstorm hazards? What are some of the top 
        opportunities for, and primary barriers to, reducing these 
        vulnerabilities?

        3.  What is the size, structure, and focus of federal wind 
        hazard mitigation efforts, particularly with regard to research 
        and development?

        3.  What gaps in data exist with regard to our knowledge and 
        understanding of windstorm hazards, and how could the overall 
        wind hazard mitigation portfolio be refocused or otherwise 
        strengthened to improve mitigation in the United States?

        4.  How can non-federal entities such as the insurance industry 
        and State and local governments contribute to, and benefit 
        from, improved wind hazard mitigation?

4. Brief Overview

        <bullet>  The United States currently sustains several billion 
        dollars each year in property and economic losses due to 
        windstorms. While estimates of annualized windstorm damages are 
        highly variable and limited in scope, the National Weather 
        Service estimates that between 1995 and 2002, hurricanes, 
        tornadoes, and thunderstorm winds caused on average $4.5 
        billion in damage per year. The American Society of Civil 
        Engineers has estimated windstorm damages to be in excess of $5 
        billion per year.

        <bullet>  The most powerful hurricane in the last century to 
        hit the United States was Hurricane Andrew, in August of 1992. 
        It caused 58 deaths and approximately $27 billion in damages. 
        In addition, more than one million people were evacuated from 
        Southern Florida because of the storm.

        <bullet>  A variety of cost-effective windstorm hazard 
        mitigation measures exist, and many more are undergoing 
        research and development. It is unclear to what extent these 
        mitigation technologies have been adopted, but it is generally 
        agreed that they have been under-utilized, and that significant 
        improvements in the wind resistance of buildings and other 
        structures will not be achieved without improved incentives at 
        the local and individual level. This fact, combined with 
        growing populations in coastal areas particularly susceptible 
        to major windstorms, has led to substantial increases in the 
        overall windstorm vulnerabilities.

        <bullet>  Federal windstorm hazard mitigation efforts span 
        several agencies, including the Federal Emergency Management 
        Agency (FEMA), National Institute of Standards and Technology 
        (NIST), National Oceanographic and Atmospheric Administration 
        (NOAA), National Science Foundation (NSF), and the Department 
        of Energy (DOE). Evaluations of the size, scope, and 
        effectiveness of these mitigation efforts have found 
        significant room for improvement. For example, a 1999 report by 
        the National Academy of Sciences found that: ``. . .there is 
        still a lack of leadership, focus, and coordination of wind-
        hazard mitigation activities across all agencies, and funding 
        for research and development specifically targeting wind-hazard 
        reduction issues is insufficient.''

5. Background

Hurricanes and Tornadoes
    High winds can easily destroy poorly constructed buildings and 
mobile homes. Hurricanes can reach constant wind speeds greater than 
155 mph and extend outward as far as 400 miles. While the National 
Weather Service is able to detect hurricanes days before they make 
landfall, predicting when, where, and with what force a hurricane will 
hit remains an inexact science.
    Tornadoes generally occur near the trailing edge of a thunderstorm, 
though they are also often produced by hurricanes. Tornado winds can 
reach up to 300 mph and can be powerful enough to lift homes off 
foundations. Tornadoes are much more difficult to detect than 
hurricanes with an average lead-time for warnings of only 12 minutes. 
This makes evacuation nearly impossible, a factor that led to the 
development and implementation of in-residence tornado shelters, 
developed from research performed at Texas Tech University.
    Since 1950, tornadoes have claimed over 4,400 lives. Texas has been 
particularly vulnerable, averaging 124 tornadoes each year--more than 
double the average of any other state. On May 11, 1970, a tornado 
ripped through downtown Lubbock, Texas, killing 26 people, injuring at 
least 1,500 more, and causing more than $530 million in damage.
    While the Federal Government does not maintain a comprehensive 
windstorm loss database, the National Weather Service does compile 
damage estimates that demonstrate the tremendous costs of windstorms 
(Table 1). Also, the insurance industry maintains separate loss 
databases that measure damage to insured property. However, according 
to ``Disasters by Design: A Reassessment of Natural Hazards in the 
United States,'' a 1999 report by the National Academy of Sciences, 
insurance industry data may represent only a small percentage of total 
losses because many property owners do not buy coverage against 
hurricanes and other natural hazards.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    With more people than ever before living near coastlines, 
vulnerability to wind hazards in the U.S. is steadily increasing. 
Already, more than one in six Americans live in a county that lies next 
to the eastern Atlantic or Gulf of Mexico coast. In addition, the 
coastal population is growing rapidly, particularly from Texas through 
the Carolinas. In popular resort areas that are common along the 
coastline, numbers often swell even further when holiday, weekend, and 
vacation visitors arrive. These large and increasing populations have 
resulted in substantial increases in buildings and infrastructure in 
high-risk coastal areas that are also vulnerable to windstorms.

Federal Windstorm Hazard Mitigation Efforts
    The size and scope of federal investments in windstorm hazards 
research and development (R&D) is generally agreed to be in the range 
of a few million dollars, though specific numbers are hard to come by, 
in part because of the fragmented and uncoordinated nature of these 
efforts. Agencies contributing to this effort include FEMA, NOAA, NIST, 
NSF, and DOE.
    The bulk of the windstorm hazard funding is directed toward 
fundamental research and development into the atmospheric and 
meteorological aspects of windstorms, contributing to a greater 
understanding of weather-related phenomena, but generally without 
specific mitigation applications in mind. A smaller portion of the 
windstorm hazard research and development effort is directed toward 
structural and engineering aspects of buildings and infrastructure 
impacted by windstorms. In a 1999 report, the National Academy of 
Sciences recommended that: ``The Federal Government should coordinate 
existing federal activities and develop, in conjunction with state and 
local governments, private industry, the research community, and other 
interested stakeholder groups, a national wind-hazard reduction 
program. Congress should consider designating sufficient funds to 
establish and support a national program of this nature.''
    Unfortunately, simply developing technical solutions will not 
reduce vulnerability to wind hazards. FEMA and the insurance industry 
have both determined that improving the wind resistance of buildings 
will only be achieved when there is a demand for wind-resistant 
construction by homeowners. Solving the wind-vulnerability problem will 
not only require coordinated work in scientific research and technology 
development, but education, public policy, the behavioral sciences, and 
technology transfer as well.

6. Questions for Witnesses

    The witnesses were asked to address the following questions in 
their testimony:
Dr. Meade

        <bullet>  What regions of the country and characteristics of 
        the built environment are most vulnerable to windstorm hazards? 
        Are these vulnerabilities increasing or decreasing, and why? 
        What are some of the opportunities for, and primary barriers 
        to, reducing these vulnerabilities?

        <bullet>  Approximately how much money does the Federal 
        Government spend per year on wind hazard mitigation research 
        and development? Where is this effort currently focused (i.e., 
        direct vs. indirect research, engineering, economic, 
        meteorological, etc.)? Where are the primary gaps with regard 
        to our knowledge and understanding of windstorm hazards? How 
        could the federal wind hazard research and development 
        portfolio be refocused or otherwise strengthened to improve 
        mitigation in the United States?

Dr. Bienkiewicz and Dr. Kiesling

        <bullet>  What regions of the country and characteristics of 
        the built environment are most vulnerable to windstorm hazards? 
        Are these vulnerabilities increasing or decreasing, and why? 
        What are some of the top opportunities for, and primary 
        barriers to, reducing these vulnerabilities?

        <bullet>  What are some of the processes that are in place for 
        transferring new technologies to government agencies and the 
        private sector for implementation? What role do the research 
        activities at Texas Tech University and Colorado State 
        University play in implementation of new mitigation techniques?

        <bullet>  What steps could be taken to strengthen the federal 
        wind hazard research and development portfolio in the United 
        States, particularly with regard to planning, coordination, and 
        focus within the research and development portfolio?

Mr. Shofner

        <bullet>  How would you characterize the size and focus of 
        ongoing wind hazard mitigation research and development being 
        performed by the insurance industry? To what extent do 
        insurance industry research efforts build on research done by 
        universities or the government, and vice-versa? How does the 
        insurance industry work with Federal, State, and local 
        governments to share data that may help contribute to windstorm 
        hazards reductions?

        <bullet>  Approximately how much damage do wind hazards cause 
        in the United States on an annual basis, and are these damages 
        broken down by variables such as building types, structural 
        characteristics, and geography? What types of damage are taken 
        into account in compiling these damage estimates, and what 
        types are not included? What data gaps exist with regard to our 
        knowledge and understanding windstorm hazards?

        <bullet>  What role does the insurance industry play in 
        encouraging implementation of existing mitigation techniques in 
        retrofitting and new home construction? To what extent do 
        insurance policies consider and incorporate incentives for 
        implementation of these mitigation techniques?

    Mr. Neugebauer. We will call this hearing to order on 
Strengthening Windstorm Hazard Mitigation for purposes of the 
examination of public and private efforts.
    I want to welcome everyone to this hearing where we will 
examine the status of windstorm hazard mitigation in the United 
States and consider the role of federal research and 
development in windstorm hazard reduction.
    On May 11th, 1970, tragedy struck Lubbock, Texas. An F-5 
tornado ripped through downtown Lubbock. Twenty-six people were 
killed, and at least 500 were injured. The tornado had winds 
estimated in excess of 200 miles per hour and damaged or 
destroyed a large section of the city, mainly north and east of 
19th and University, where we sit today.
    And as a little postscript to that, I was at the corner of 
22nd and University in a friend of mine's home, but I should 
have been over on 5th and Avenue Q in my apartment, which was 
totally destroyed by the tornado, and so I can testify that my 
person was safe, but my property was not. We are going to be 
talking about some issues that revolve around that today.
    In just a few moments, between 9:35 p.m. and the time that 
the funnel lifted into the clouds, the tornado devastated the 
community along an eight and a half mile wide path. It wrought 
havoc along a track that was one and a half miles wide in 
downtown Lubbock, to one-fourth mile wide as it passed over the 
Weather Bureau Office located at the Lubbock Airport. The 
twister was responsible for $125 million in damage and an 
estimated 15 square miles of the city either damaged or 
destroyed.
    The National Weather Service estimates that between 1995 
and 2002 hurricanes, tornadoes, and thunderstorm winds caused 
an average of $4.5 billion in damage each year during that 
period. Texas alone averages 124 tornadoes a year, which is 
more than double the average of any other state.
    Technology advancements in the second half of the century 
have contributed to better, more accurate severe weather 
watches and warnings from the National Weather Service, 
ultimately saving countless lives.
    The biggest advancement for severe weather forecasting was 
the development of the Doppler radar. Scientists and other 
researchers took the airborne radar development by the U.S. 
Military during World War II and applied it to weather 
forecasting and severe storm identification. The ultimate 
result was the next generation of radar Doppler that we 
currently use today.
    Advancements in computer technology also made some progress 
in the area of weather prediction, allowing meteorologists to 
apply physics in replicating motions of the atmosphere. This, 
combined with diligent analysis to recognize weather patterns, 
helped advance severe weather prediction to its current level 
of an average lead time of over 11 minutes.
    Even as we build on our current weather prediction 
successes and create new resources for predicting windstorms at 
a greater rate, the United States continues to sustain several 
billion dollars each year in property and economic losses due 
to windstorms and human costs are--well, human costs are also 
very painful. West Texas is particularly vulnerable to the high 
winds in tornadoes.
    A variety of windstorm hazard mitigation measures exist and 
many more are undergoing research and development. For example, 
in the past five years the Texas Tech Wind Engineering Research 
Center has received funding under a cooperative grant with the 
National Institute for Standards and Technology to research the 
detrimental effects of windstorms on buildings and to reduce 
losses from windstorm events. Their work has led to many 
accomplishments on the national scope. This year they have 
received an additional $994,000 to carry on their research to 
improve the economy of shelters and wind resistant 
construction.
    Improving the wind resistance of buildings will only be 
achieved when there is demand for wind resistant construction 
by homeowners. The tornado in Lubbock that was so destructive 
more than 30 years ago is a reminder of how vulnerable we are 
and how serious we should be about severe weather safety and 
preparedness.
    For the next couple of hours we will hear from expert 
witnesses, who I will probably introduce in a few minutes, on 
how current windstorm hazard mitigation works and we will 
discuss how the Federal Government can help facilitate further 
research. I look forward to hearing everyone's testimony and I 
am proud to bring this hearing to the 19th District.
    Now I would like to recognize my colleague on the House 
Science Committee, Congressman Dennis Moore from Kansas, so 
that he may make some opening remarks. Congressman Moore has 
been a leader on this issue and currently serves as co-chair of 
the Wind Hazard Reduction Caucus, an organization which focuses 
on increasing the awareness of the Members of Congress about 
the public safety and economic loss issues associated with 
wind. I would like to thank him and welcome him to Lubbock for 
this hearing and look forward to working with him on this very 
important issue. Mr. Moore.
    [The prepared statement of Mr. Neugebauer follows:]

         Prepared Statement of Representative Randy Neugebauer

    I want to welcome everyone to this hearing where we'll examine the 
status of windstorm hazard mitigation in the United States and consider 
the role of federal research and development in windstorm hazard 
reduction.
    On May 11, 1970 tragedy struck Lubbock, Texas. An F5 tornado ripped 
through downtown Lubbock. Twenty-six people were killed and at least 
500 more were injured. The tornado had winds estimated in excess of 200 
mph, and damaged or destroyed a large section of the city, mainly north 
and east of 19th Street and University Avenue--where we sit today.
    In the few moments between 9:35 p.m. and the time the funnel lifted 
into the clouds, the tornado devastated the community along an 81/2 
mile path. It wrought havoc along a track that was 11/2 miles wide in 
downtown Lubbock to one-fourth mile wide as it passed over the Weather 
Bureau Office located at the Lubbock Airport. The twister was 
responsible for 125 million dollars in damage with an estimated 15 
square miles of the city damaged or destroyed.
    The National Weather Service estimates that between 1995 and 2002, 
hurricanes, tornadoes, and thunderstorm winds caused an average of 4.5 
billion dollars in damage every year. Texas alone averages 124 
tornadoes a year, which is more than double the average of any other 
state.
    Technological advancements in the second half of the century have 
contributed to better, more accurate severe weather watches and 
warnings from the National Weather Service, ultimately saving countless 
lives. The biggest advancement for severe weather forecasting was the 
development of Doppler radar. Scientists and other researchers took the 
airborne radar developed by the U.S. military during World War II and 
applied it to weather forecasting and severe storm identification. The 
ultimate result was the Next Generation Radar Doppler that we currently 
use.
    Advancements in computer technology also led to progress in 
numerical weather prediction, allowing meteorologists to apply physics 
in replicating motions of the atmosphere. This, combined with diligent 
analysis to recognize weather patterns, helped advance severe weather 
prediction to its current level of an average lead time of over 11 
minutes.
    Even as we build on our current weather prediction successes and 
create new resources to predict windstorms at a greater rate, the 
United States continues to sustain several billion dollars each year in 
property and economic losses due to windstonns--and the human costs are 
all too painful. West Texas is particularly vulnerable to high winds 
and tornadoes.
    A variety of cost-effective windstorm hazard mitigation measures 
exists, and many more are undergoing research and development.
    For example, in the past five years the Texas Tech Wind Engineering 
Research Center has received funding under a cooperative agreement with 
the National Institute for Standards and Technology to research the 
detrimental effects of windstorms on buildings and to reduce losses 
from windstorm events. Their work has led to many accomplishments on 
the national scope. This year they have received an additional 994,100 
dollars to carry on their research to improve the economy of shelters 
and wind resistant construction.
    Improving the wind resistance of buildings will only be achieved 
when there is a demand for wind-resistant construction by homeowners. 
The tornado in Lubbock that was so destructive more than 30 years ago 
is a reminder of how vulnerable we are and how serious we should be 
about severe weather safety and preparedness. For the next couple of 
hours we will hear from expert witnesses, who I will properly introduce 
in a few minutes, on how the current windstorm hazard mitigation 
process works and we will discuss how the Federal Government can help 
facilitate further research. I look forward to hearing everyone's 
testimony and I'm proud to bring this hearing to the 19th District.
    Now I'd like to recognize my colleague on the House Science 
Committee, Congressman Dennis Moore from Kansas so that lie can make 
his opening remarks. Congressman Moore has been a leader on this issue 
and currently serves as Co-chair of the Wind Hazard Reduction Caucus, 
an organization which focuses on increasing the awareness of Members of 
Congress about the public safety and economic loss issues associated 
with wind. I'd like to thank him and welcome him to Lubbock for this 
hearing. I look forward to working with him on this important issue.

    Mr. Moore. Thank you very, very much, Congressman 
Neugebauer, for inviting me here today. I really appreciate 
your coming up with the idea for this hearing today here in 
Lubbock and for hosting and basically chairing this committee. 
I am looking forward to the testimony of our panel of experts 
here today.
    I also want to thank Texas Tech for working with me for the 
past three Congresses. I have been in Congress now, I'm 
starting my sixth year. Texas Tech has worked closely with us 
and my staff in the three Congresses on legislation on this 
topic. To keep this truly bi-partisan I will also recognize and 
thank Representative Stenholm for helping to give an initial 
earmark that brought $3.8 million to the Texas Tech Wind 
Disaster Research Program in 1998, but I think we owe a special 
debt of gratitude again to the Congressman here for bringing us 
here today for this very, very important hearing.
    Five months after I took office in 1999, my hometown of 
Wichita, Kansas, was hit by an F-4 tornado which plowed through 
the suburb of Hayesville, Kansas, killing six, injuring 150, 
and causing over $140 million in property damage. The 
devastation of this attack motivated me to do something about 
the old Mark Twain adage, ``Let's do something about the 
weather.'' I put together legislation modeled after NEHRP 
[National Earthquake Hazards Reduction Program], the successful 
earthquake research program begun over 30 years ago. My 
legislation's goal is to mitigate loss of life and property due 
to wind and related hazards and I am proud to say that the 
Congressman here is a co-sponsor of this legislation, which I 
think is very important.
    I utilized comments from the American Society of Civil 
Engineers, the American Association of Homebuilders, the 
insurance industry, meteorologists, emergency managers, 
academia, industry, and the Manufactured Housing Association to 
try to fine tune our legislation and on May 4 of 2003, almost 
four years to the day after the deadly 1999 Kansas and Oklahoma 
tornadoes, tornadoes again touched down in metro Kansas City 
and the surrounding suburbs, which is my district, as well as 
in many of Science Committee colleagues' Districts, destroying 
property, killing and injuring our constituents.
    These tornadoes didn't check before they hit to see whether 
they were Republicans or Democrats. Frankly, partisan politics 
has no place in the discussion here and I think it is very, 
very important and encouraging, and I think hopeful people in 
this country are waiting to see us find an issue where we can 
work truly together on a bi-partisan, non-partisan basis and do 
the right thing for the people in this country. It's not a 
Republican issue. It's not a Democratic issue. It's a human 
issue and it's a human tragedy when a storm like this strikes 
and destroys property and takes peoples' lives. I have seen it 
in my district.
    I know you have seen it here. I know Lubbock, Texas, was 
hurt very, very badly several years ago as the Congressman 
said.
    I want to again thank you, Randy, for having this important 
hearing. I'd also like to thank the witnesses for sharing their 
expertise here today and we look forward to your testimony and 
asking you some questions. Thank you very much.
    [The prepared statement of Mr. Moore follows:]

           Prepared Statement of Representative Dennis Moore

    I would like to thank Representative Randy Neugebauer for inviting 
me here today to Texas Tech and for working with me for the past three 
Congresses on legislation on this topic and Representative Charlie 
Stenholm for getting the initial earmark that brought $3.8 million to 
the Texas Tech's wind disaster research program in 1998.
    Five months after I took office in 1999, my hometown of Wichita, 
Kansas, was attacked by a F4 tornado, which plowed through the suburb 
of Haysville killing six, injuring 150, and causing over 140 million 
dollars in damage. The devastation of this attack motivated me to do 
something ``about the weather'' to paraphrase the old Mark Twain adage.
    I put together a piece of legislation modeled after NEHRP, the 
successful earthquake research program begun over 30 years ago. My 
legislation's goal is to mitigate loss of life and property due to wind 
and related hazards.
    I utilized comments from the American Society of Civil Engineers, 
the American Association of Home Builders, the insurance industry, 
meteorologists, emergency managers, academia, industry, and the 
manufactured housing associations to fine-tune the legislation.
    On May 4, 2003, almost four years to the day after the deadly 1999 
Kansas and Oklahoma tornadoes, tornadoes touched down in metro Kansas 
City and the surrounding suburbs as well as in many of my Science 
Committee colleagues' districts, destroying property, killing and 
injuring our constituents.
    These tornadoes did not check with Congress to see if they were 
hitting Republican or Democratic districts, just hit both. This is not 
a Republican or a Democratic issue, it is a human issue--it is a human 
tragedy. These windstorms destroy lives; I have seen it in my own 
district and know many of my colleagues have seen it in theirs.
    Thank you again, Rep. Neugebauer, for having this important hearing 
and I would also like to thank the witnesses for sharing their 
expertise on this extremely important issue.

    Mr. Neugebauer. Thank you. I am going to just briefly 
introduce the panel members to you today. From my left and 
going right, Dr. Ernst Kiesling, who is Professor of Civil 
Engineering at Texas Tech University. Dr. Kiesling has 37 years 
of teaching, research, and administrative experience at Texas 
Tech University, including serving as Chair of the Civil 
Engineering Department from 1969 to 1988. Dr. Kiesling was the 
first to develop an in-residence tornado shelter, providing 
occupant protection during tornadic events. The research 
provided the basis for the Federal Emergency Management 
Agency's qualification on in-residence shelter design.
    Next we have Dr. Charles Meade. He is a senior physical 
scientist with the RAND Corporation of Science and Technology 
Policy Institute in Washington, D.C. He is the primary author 
of ``Assessing Federal Research Development for Hazard Loss 
Reduction,'' a piece prepared for the White House Office of 
Science and Technology Policy in 2003.
    And then Dr. Bo Bienkiewicz. He is a Professor of Civil 
Engineering at Colorado State University Wind Engineering and 
Fluids Laboratory. Dr. Bienkiewicz is also the Vice-President 
of the American Association of Wind Engineering, Secretary of 
the American Society of Civil Engineering Committee on Wind 
Effects, and Co-Chairman of the International Wind Engineering 
Forum.
    And finally Dr., I mean Mr. Bryan Shofner. He is President 
of Shofner & Associates Insurance Agency in Lubbock, Texas. Mr. 
Shofner was named Young Agent of the Year in 2001 by the 
Independent Insurance Agents of Texas.
    Mr. Shofner is also a long-time member of his local, state, 
and national independent insurance agent associations, 
including serving as President of the Lubbock Association of 
Insurance Agents.
    As you know, the format is to give your opening testimony. 
We are not going to be real strict on the five minutes, but we 
would like to make those as brief as possible. Your full 
opening statement will be entered into the record. And then we 
would then open up for time for question and answer. Dr. 
Kiesling.

    STATEMENT OF DR. ERNST W. KIESLING, PROFESSOR OF CIVIL 
              ENGINEERING, TEXAS TECH UNIVERSITY.

    Mr. Kiesling. Thank you for being here today and for your 
purpose in being here. I am privileged to be the spokesperson 
for the Wind Science and Engineering Research Program at Texas 
Tech. I am particularly honored to be standing in for Dr. 
Kishor Mehta, the long-time Director of the Center, who at this 
moment is in Asia delivering papers at an international wind 
conference. Otherwise, he would have been here.
    We have engaged in hazard mitigation activities since 1970 
when the tornado that Congressman Neugebauer mentioned came to 
Lubbock, Texas. Improving buildings for wind resistance has 
been a major focus of our program throughout its history. 
Damage to buildings, especially houses, comprises a major 
segment of wind damage so much of my testimony will relate to 
that segment of the broad field of wind engineering, wind 
mitigation research.
    Our research in hazard mitigation has two major 
objectives--saving lives and reducing economic losses. The 
reports and testimonies of other presenters at the table will 
define the nature and magnitude of our growing vulnerability 
and discuss the status of research and development efforts.
    I will simply give a snapshot of the one productive hazard 
mitigation program I am familiar with and list some of the 
opportunities for further reducing our vulnerability.
    The collaborative efforts of a number of universities, most 
notably Colorado State University with its NSF project, have 
made progress in a number of areas important to curbing the 
spiraling economic losses to windstorms. I think our major 
progress in hazard mitigation has been in damage documentation. 
We have documented the damage in over 130 major storms now in 
this country and in Australia.
    Storm shelters, most commonly known as safe rooms, have 
gone from an inspiration to a concept, to utilization, to the 
establishment of an industry. We have come a long way in 
understanding wind characteristics through laboratory, full-
scale tests, and field studies, as well as through 
observations. We have studied wind effects on buildings in the 
laboratory and simulations using, for example, a C-130 
aircraft. We have made observations in the field on the effects 
of winds. This played heavily in standards and code 
development, the ASCE 7, and we are currently involved with the 
International Code Counsel in developing a national consensus 
standard for storm shelters. We have been involved in 
technology transfer through publications, short courses, 
outreach, and heavily involved in education and inter-
disciplinary education at the graduate level to produce 
graduates who understand the hazards and have potential 
solutions for meeting those challenges of the hazards.
    Yet some of these same areas represent the most fertile 
ones for the future. We do not have a very good understanding 
of fluctuating wind blows, particularly in tornadoes and 
perhaps not even in hurricanes. And then we need to simulate 
those fluctuating wind fields in the laboratory so that we can 
economically study the effects of those winds.
    The knowledge of building resistance to wind loads is not 
well known. Progressive failures in the buildings when 
subjected to these fluctuating wind loads leave a lot of 
challenges for us. We continue to document damage, but we need 
to develop a consistent database to make those useful in 
calibrating wind loss damage models, verifying benefit to cost 
ratio in theories for improvements, developing uniform 
standards as a basis for building codes, and influencing the 
attitudes and behaviors of people.
    I think the most effective mitigation actions will be taken 
when building owners perceive that benefits will be derived 
from investments made in mitigation measures. They must be able 
to make well-informed decisions by having credible information 
available to them and the research community bears the 
responsibility for providing that information.
    There are a number of barriers to progress. Obviously, the 
limited funding, the access to mitigation funding, mitigation 
activities, is sometimes hindered by the, say, the strict 
limitations of funding agencies. That needs to be overcome and 
I think in writing legislation, we can do that.
    There are a number of other limitations, but let me get to 
the bottom line and say that I view our program here as having 
made considerable progress in producing some important initial 
results. A synergy has developed among researchers here and 
among collaborating institutions. With modest funding we have 
conducted an applications-oriented research and development 
that has resulted in some improvements in making buildings more 
resistant to extreme winds. We believe the benefit to cost 
ratio is large for the investments made, but the significance 
of this program is not in the results obtained today, rather 
these results create a platform from which to launch further 
research and the program serves as an example of what can be 
accomplished through focused, sustained research and 
development efforts.
    The seemingly daunting challenges cannot be addressed 
effectively by a single institution or agency. To be effective 
in curbing spiraling wind damage losses we must have a 
coalition of diverse agencies and disciplines pursuing 
comprehensive, coordinated, multidisciplinary research and 
development that is focused on the wind hazard and coupled to 
the implementation strategies.
    With such a focused effort, supported by adequate levels of 
sustained funding, we can expand the synergy of this small 
program to the national level and include multiple institutions 
and agencies to effectively pursue the goal of curbing economic 
losses from extreme winds. The American people will be the 
beneficiaries of investments we make now. We are confident that 
the payoff will be significant with benefits to cost ratios 
uncommonly high for research efforts and I would simply say in 
closing that we really appreciate your support in the past and 
for considering the hazard mitigation effort in the future. 
Thank you.
    [The prepared statement of Mr. Kiesling follows:]

                Prepared Statement of Ernst W. Kiesling

The Potential of Research

    The common interest that brings us together is curbing the 
spiraling losses inflicted upon our country by windstorms. My 
presentation and report focus largely on one applied research program 
at Texas Tech University that has proven effective. This program has 
produced results that are being used by facilities designers to provide 
occupant protection and to mitigate the effects of windstorms. The 
model's importance lies not in what has been accomplished--albeit 
significant as a pioneering effort--but rather to reveal what might be 
achieved when this model is expanded from a synergistic labor of a few 
researchers to a focused, coordinated effort among many diverse teams 
working toward a common goal at several of our leading research and 
implementation institutions.

Losses

    The death, destruction, and disruptions associated with windstorms 
are felt by all. And while consistent databases on damage and economic 
impacts are lacking, we can draw conclusions about the increasing 
devastation and waste of the windstorm hazard. For example, of the ten 
most costly catastrophes in the U.S., eight are weather-related. In the 
past 25 years, the U.S. has experienced 57 weather-related disasters in 
which damages exceeded $1 billion. The total normalized losses from 
these events totals over $355 billion.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Windstorms are prominent among natural hazards, accounting for 
about two-thirds of the total losses. The percent of insured losses 
shown in the pie chart are for the ten year period of 1985-95. Figures 
in this form are not available beyond 1995.
    Population growth, urbanization, and increased property values in 
harm's way will push future economic losses even higher. We can curb 
these losses through large-scale, coordinated, multi-disciplinary 
research connected to effective implementation strategies. Such 
programs will, over time, have large benefit-to-cost ratios.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Past investments in research and technology have produced improved 
prediction and warning systems, reducing death and injuries resulting 
from windstorms. Better warnings have facilitated evacuations from 
hurricanes, moving people out of harm's way. But population growth has 
made evacuation less viable in some regions, forcing an alternative 
strategy--sheltering in place. This is a good strategy for alleviating 
problems associated with evacuation, but will prove effective only if a 
sufficient number of shelter spaces are available. Shelter deficits are 
large in some areas. Without protective shelters that can withstand 
extreme winds and windborne debris, large-scale casualties are likely, 
reversing the decreasing death rate of recent decades. Much research is 
needed toward economical and safe shelter design and cost-effective 
mitigation of property losses.

National Research Needs

    Recent reports by various agencies help define the research needed 
to abate the windstorm hazard. Over the years, the National Research 
Council has published a number of useful reports that define the wind 
hazard and point to needed research. Most recently the RAND report, 
presented at this hearing by Charles Meade, clearly illuminates needed 
research and some challenges in implementation. The report of the 
American Association for Wind Engineering, prepared and presented by 
Dr. Bogusz Bienkiewicz, yields data emphasizing the importance of 
mitigation efforts and presents details of a proposed national program 
for mitigating the effects of windstorms.
    This report, presented by Texas Tech University, deals primarily 
with progress made in some research areas along with challenges and 
future opportunities for further research in those areas, and it shows 
some facilities that are available for continued use by the research 
community. Technology transfer and education is a significant component 
of the ongoing effort at Texas Tech University.

Windstorm Hazard Mitigation at Texas Tech: An Overview

    Windstorm hazard mitigation research and development started at 
Texas Tech University on May 11, 1970 when a severe tornado affected 
half the constructed facilities of the city of Lubbock, killing 26 
people and injuring more than 500. A team of researchers from the Civil 
Engineering Department at Texas Tech joined forces with a special 
committee of the National Research Council in documenting damage and 
destruction of buildings by wind forces of the tornado. Since 1970, 
university personnel have documented and archived damage photographs 
and other data in more than 130 windstorm events.
    The Institute for Disaster Research (IDR) organized and coordinated 
early programs in windstorm hazard mitigation at Texas Tech. In the 
1970s, the Institute pursued research in the destructive nature of 
tornado and hurricane winds on buildings, enabling them to provide 
information to:

        <bullet>  The National Weather Service--opening windows in 
        tornadoes does not help

        <bullet>  The Nuclear Regulatory Commission--credible size of 
        windborne debris

        <bullet>  The public--safest places in houses are in a small 
        central room

        <bullet>  School officials--inside hallways are the best areas 
        to seek refuge; avoid large span gymnasiums.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Under the sponsorship of the National Science Foundation (NSF), 
Defense Civil Preparedness Agency (currently FEMA), National Severe 
Storms Laboratory (NSSL) and the State of Texas, the Institute 
published papers, reports, and guidelines for occupant protection and 
engineering perspectives of tornadic storms.
    In the 1980s, with the change of our name to the Wind Engineering 
Research Center, personnel of the center continued research in wind 
effects on buildings and the implications of damage. Significant items 
of technology transfer included the upgrading of wind load standards 
(chaired the ANSI A 58.1 and ASCE 7 Wind Load Committees), defining 
consequences of window glass breakage due to windborne debris, and 
assessing high roof corner pressures obtained in field experiments.
    The research program expanded in the 1990s to include meteorology 
and damage economics; the Center changed its name to Wind Science and 
Engineering (WISE) Research Center in order to reflect the 
multidisciplinary approach into which it had evolved. One of the 
significant research pursuits was the ten-year Cooperative Research in 
Wind Engineering between Colorado State University and Texas Tech 
University, which was funded by the National Science Foundation (NSF). 
This research effort was multidisciplinary and involved fifteen faculty 
members from the two institutions. The cooperative basic research 
permitted expansion of research in ground-level wind characteristics, 
wind damage economics, and wind tunnel and field studies for low-rise 
building loads. Technology transfer was accomplished for shelter 
design, leading to prescriptive designs for residential shelters, 
published by the Federal Emergency Management Agency (FEMA). 
Implementation of storm shelter (Safe Room) research resulted in the 
birth of the storm shelter industry and the formation of the National 
Storm Shelter Association (NSSA) who foster quality in the shelter 
industry. The Cooperative program also produced building damage 
prediction models through development of an expert system, established 
the Information Outreach Center, and graduated students well-versed in 
windstorm damage and mitigation.
    Multidisciplinary research in the WISE Center continues under the 
sponsorship of the National Institute of Standards and Technology 
(NIST) and other agencies and private organizations. Currently, faculty 
members in engineering, atmospheric science, economics, mathematics, 
and architecture are involved in wind-related research. The facilities 
of debris impact testing, field site (with a 200-meter tower) at Reese 
Technology Center, West Texas Mesonet, portable meteorological towers 
including the SMART radar, and a wind tunnel, permit us to continue our 
pursuit of research in wind effects on buildings and structures, 
windstorm damage economics, wind characteristics in hurricanes and 
tornadoes, the economical design of shelters, soil erosion, and wind 
energy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Over the past three decades, WISE Center personnel have pursued 
collaborative wind research projects with agencies, organizations, and 
universities, including NIST, the National Science Foundation (NSF), 
the Federal Emergency Management Administration (FEMA), the National 
Oceanic and Atmosphere Agency (NOAA), Texas Department of Insurance, 
Colorado State University, University of Western Ontario, Johns Hopkins 
University, Clemson University, University of Florida, Texas A&M-
Kingsville, and the University of Oklahoma. In the following, a 
synopsis of research areas of damage documentation, storm shelters, 
wind effects, standards and codes, wind characteristics, and technology 
transfer/education are given. The synopsis gives a brief description of 
the research followed by bulleted items of accomplishments and 
challenges.

Damage Documentation

    Documentation of damage to buildings in Lubbock following the 1970 
tornado and the comprehensive report that was published was the first 
step in Texas Tech's gaining recognition and credibility in damage 
mitigation research. Damage documentation studies have continued in 
most of the extreme wind events that have occurred since 1970. Over 130 
documentations have been completed, and a large number of photographs 
and reports have been archived. Information from the archive has been 
used extensively in seminars, publications, and outreach to the 
professional design community. The library of the late Dr. Ted Fujita, 
noted scientist and researcher (originator of F-scale rating for 
tornadoes) at the University of Chicago, was recently donated to Texas 
Tech, further enriching this valuable resource.

Lessons Learned

        <bullet>  Central portion of building is the safest

        <bullet>  Opening windows is counterproductive (impacted NWS 
        instructions)

        <bullet>  Low-rise buildings of wood, masonry, light metal fail 
        structurally

        <bullet>  Cladding damage is common

        <bullet>  Debris is abundant in urban areas

        <bullet>  Costly business interruptions are common

        <bullet>  Content damage is extensive

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

Challenges/Opportunities

        <bullet>  Collection of statistical data

        <bullet>  Archiving cost data on consistent basis

        <bullet>  Aerial and satellite imagery documentation

        <bullet>  Developing accessible user-friendly data retrieval 
        system

Storm Shelters (Safe Rooms)

    Although the concept of the aboveground storm shelter emerged in 
the 1970s, widespread utilization followed the 1998 publication and 
distribution of FEMA Publication 320, Taking Shelter from the Storm--
Building a Safe Room Inside Your House. Soon to follow was FEMA 
Publication 361, Design and Construction Guidance for Community 
Shelters. Rapid growth of the shelter industry was stimulated by the 
incentive grant program in Oklahoma following the Oklahoma City 
tornadoes of 1999. Emerging quality issues in shelter construction led 
to formation of the National Storm Shelter Association and development 
of an industry standard (available at www.NSSA.cc). The International 
Code Council is now developing a national consensus standard for storm 
shelters. Completion is expected in 2005.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Accomplishments

        <bullet>  Developed designs with conservative wind loads

        <bullet>  Bridged gap between research and implementation

        <bullet>  Designed and built state-of-the-art debris impact 
        facility

        <bullet>  Provided design input to FEMA 320 and 361 
        publications

Challenges/Opportunities

        <bullet>  Optimize site-specific designs for economy

        <bullet>  Foster quality in shelter construction - standards 
        and codes

        <bullet>  Reduce hurricane evacuation with in-home shelters

        <bullet>  Change mindset of public for shelters

        <bullet>  Define incentives to build shelters in existing and 
        new buildings

        <bullet>  Establish programs to fund shelter construction for 
        low income people

Wind Effects

    The windy environment in the Lubbock area has permitted us to 
establish the Wind Engineering Research Field Laboratory (WERFL). A 
full-size building and a meteorological tower permit measurement of 
wind pressure data in natural winds. The WERFL facility was an impetus 
to the pursuit of a cooperative program (funded by NSF) with Colorado 
State University, which tested the same building in their wind tunnel 
to improve testing technology.
    Innovative testing in the field using a C-130 Hercules aircraft 
permitted testing of full-size buildings in controlled high winds (gust 
up to 100 mph). Testing of real buildings to failure in fluctuating 
winds (not yet tested) will allow us to understand component 
resistances and progressive failure modes. This understanding leads to 
credible wind loss models.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Accomplishments

        <bullet>  Developed unique WERFL for wind effects

        <bullet>  Measured pressures from natural wind on a building

        <bullet>  Pursued cooperative NSF-funded program with CSU

        <bullet>  Assisted in improving wind tunnel technology

        <bullet>  Tested full-scale building with C-130 prop wash

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

Challenges/Opportunities

        <bullet>  Make WERFL accessible to researchers worldwide

        <bullet>  Develop facility to test full-size buildings to 
        failure

        <bullet>  Build testing facilities for frame and component 
        resistances

        <bullet>  Improve wind tunnel technology for component testing

Standards and Codes

    Accredited standards provide a foundation for building codes that 
establish expectations of quality in the constructed environment. 
Accurate data is fundamental to establishing reliable standards, 
forming the basis for codes and ultimately the design of buildings. 
Consistency of codes, and hence the consolidation of model codes, is 
important to the design of safe economical buildings. Guidelines based 
on research permit professionals to design for situations that are 
beyond codes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Accomplishments

        <bullet>  ASCE 7 Standard is based on physics and scientific 
        data

        <bullet>  One wind load standard is developed for the country

        <bullet>  Model codes are consolidated into one model code

        <bullet>  Statewide building codes are being developed

        <bullet>  ICC/NSSA Standard for storm shelters is being 
        assembled

        <bullet>  Safe areas in school guidelines have been developed

Challenges/Opportunities

        <bullet>  Calibrate prescriptive standards and codes

        <bullet>  Develop performance-based standards

        <bullet>  Develop risk management approach

        <bullet>  Develop cost-benefit models for mitigation measures

Wind Characteristics

    Knowledge of near-ground wind field in severe winds (hurricanes, 
thunderstorms, and tornadoes) and pressures and forces they impart on 
building components are essential to the design of safe economical 
buildings. The purpose of this knowledge is to simulate correct wind 
characteristics in wind tunnels. Current simulations of wind in wind 
tunnels do not reflect rapidly changing wind speeds in thunderstorms, 
downdrafts, or tornadoes or, to some extent, in hurricanes. Field 
measurements of wind in these storms, using stationary and protable 
towers, provide the necessary input to wind tunnels and, for the 
future, to computational fluid dynamics technology.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Accomplishments

        <bullet>  Measured ground-level wind characteristics in land-
        falling hurricanes

        <bullet>  Measured time and space correlation of winds in 
        thunderstorms outflow

        <bullet>  Developed (preliminary) laboratory tornado simulator

        <bullet>  Performed initial experiments for downdraft effects 
        on building

Challenges/Opportunities

        <bullet>  Develop credible laboratory model of tornado

        <bullet>  Establish wind characteristic criteria for 
        thunderstorm, tornado, and hurricane storms

        <bullet>  Develop wind tunnel that can simulate rapidly 
        changing winds

Technology Transfer/Education

    Research results become useful and valuable when they are 
implemented to improve the built environment or when they are used to 
influence human behavior and policy decisions. Information and outreach 
programs help to transfer technology to professionals and the public at 
large. We are only beginning to educate college and K-12 students to 
understand the perils of the wind hazard. The windstorm poses complex 
problems, and an interdisciplinary approach to approach to develop 
mitigation strategies and their implementation is needed.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Accomplishments

        <bullet>  ASCE continuing education courses are presented

        <bullet>  Seminars for professionals are presented

        <bullet>  Preview model for HAZUS (FEMA) has been developed

        <bullet>  A limited number of university graduates are being 
        produced

Challenges/Opportunities

        <bullet>  Provide information for public, emergency personnel, 
        and decision makers

        <bullet>  Produce graduates and professionals versed in 
        windstorm disasters

        <bullet>  Complete FEMA/HAZUS model for the wind hazard

        <bullet>  Develop and Implement Interdisciplinary educational 
        program

Reports Cited

American Association for Wind Engineering. (2004). ``Wind Engineering 
        Research and Outreach Plan to Reduce Losses Due to Wind Hazards 
        (Hurricanes, Tornadoes, and Thunderstorms).'' Draft, January 
        12.
Meade, C. and Abbott, M. (2003). ``Assessing Federal Research and 
        Development for Hazard Loss Reduction.'' RAND, Arlington, VA.
National Research Council. (1991). ``A Safer Future: Reducing the 
        Impacts of Natural Disasters.'' National Academy Press, 
        Washington, D.C.
National Research Council. (1993). ``Wind and the Built Environment: 
        U.S. Needs in Wind Engineering and Hazard Mitigation.'' 
        National Academy Press, Washington, D.C.
National Research Council. (1994). ``Facing the Challenge: The U.S. 
        National Report to the IDNDR World Conference on Natural 
        Disaster Reduction.'' National Academy Press, Washington, D.C.
National Research Council. (1999). ``The Impacts of Natural Disasters: 
        A Framework for Loss Estimation.'' National Academy Press, 
        Washington, D.C.

                    Biography for Ernst W. Kiesling
Professor of Civil Engineering, Texas Tech University; Executive 
        Director, National Storm Shelter Association

    Dr. Kiesling has 40 years of teaching, research, administration and 
public service in his career at Texas Tech University. He served as 
Chairman of the Civil Engineering Department for 20 years and as 
Associate Dean of Engineering for Research for five years. He has been 
engaged in full-time teaching and research for the past 10 years. He 
leads the storm shelter research effort within the Wind Science and 
Engineering Research Center at Texas Tech.
    Dr. Kiesling and his colleagues developed the In-Residence storm 
shelter, an above-ground shelter capable of providing a very high 
degree of protection from extreme winds. Texas Tech provided shelter 
designs and other input to FEMA publications on storm shelters.
    He was instrumental in founding the National Storm Shelter 
Association (NSSA), a non-profit trade association dedicated to quality 
in the shelter industry. He currently serves as Executive Director of 
the Association.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Neugebauer. Thank you.
    Dr. Meade.

STATEMENT OF DR. CHARLES MEADE, SENIOR PHYSICAL SCIENTIST, RAND 
                          CORPORATION

    Dr. Meade. Thank you, Mr. Chairman. I am pleased to be here 
today to discuss the research and findings from the recent RAND 
report, ``Assessing Federal Research and Development for Hazard 
Loss Reduction.'' This work, as you note, was carried out at 
the request of the White House Office of Science and Technology 
Policy to help formulate a better understanding of the role of 
our government-sponsored R&D in the Nation's efforts to reduce 
hazard losses and so it is topical to today's hearing.
    Quickly, the principal findings of our studies were 
considering the entire R&D portfolio that contributes to hazard 
loss reduction. Explicit hazard loss reduction programs, such 
as the one you are considering today, are absolutely the 
smallest component of the federal R&D portfolio. Secondly, the 
largest fraction of R&D spending supports work on weather 
hazards and broadly related research on climatology, 
atmospheric science, and oceanography. And thirdly, much of the 
R&D spending supports short-term prediction capabilities, 
specifically largely in the area of weather forecasting.
    With this background, my following remarks will address the 
community's questions for this hearing, starting with number 
one: Is the United States growing more or less vulnerable to 
damage from wind hazards and why? The U.S. is growing more 
vulnerable to wind hazards because of two trends. First, 
increasing development near the Atlantic and Gulf coast has 
created large populations and infrastructures that are 
increasingly vulnerable to hurricane. Data on insured losses 
from the insurance industry provide a stark measure of this 
increasing vulnerability. The average annual loss from 
hurricanes from 1944 to 1988 was $1.1 billion per year. That is 
insured losses. From 1988 to 1999 this value rose to four times 
that level, to an average of roughly $4.2 billion per year.
    The second component that is increasing the vulnerability 
is associated with the increasing prevalence of manufactured 
homes in the central part of the United States, where we are 
today, which is susceptible to tornadoes.
    Because these structures have only minimal wind resistance 
and no basements, the injury rate is estimated to be 20 times 
higher than that for conventional homes during high winds.
    The most important feature for both of these 
vulnerabilities is that they could be reduced through 
appropriate R&D efforts such as you're considering today.
    For example, a better understanding of hurricane wind 
fields after landfall or improved design and engineering of 
manufactured homes so they are also more resistant to wind 
hazards.
    For the second question you ask: Approximately how much 
money is the Federal Government going to spend per year on wind 
hazard mitigation research and development? Answers to this 
question depend on analysis of two subsidiary questions, both 
of which were considered in detail in the RAND study. 
Specifically, what is the definition of government research and 
development spending and what are the characteristics of R&D 
for wind hazard mitigation.
    On the first issue we utilized RAND's RaDiUS database which 
details R&D spending across the Federal Government as defined 
and classified by the OMB. So we used the OMB definition for 
R&D dollars.
    In the second issue we examined all federally-funded R&D 
applied to natural hazards and they considered contributions 
explicitly to wind hazard loss reduction. Considering the 
purposes of this hearing, they differentiated R&D expenditures 
that support improved engineering designs of structures and 
those that are focused largely on meteorological applications 
and weather forecasting. With this framework, R&D expenditures 
addressed to infrastructure losses were approximately $11 
million in FY 2001. By comparison, expenditures for 
meteorological R&D in weather forecasting were almost 70 times 
larger, at roughly $755 million.
    Considering those loss mitigations, this allegation is 
problematic because the short-term view of forecasts made only 
limited contributions to loss reduction. Specifically, 
forecasts are surely very valuable for evacuations and saving 
lives, but they do very little to limit the destruction of 
property in the long-term and larger sense, and losses that 
occurred during wind hazards.
    To address this discrepancy, we restate here and now the 
policy recommendations that were stated in our RAND report: 
Number one, there was a need to increase focus. We weigh R&D 
activities away from short-term prediction efforts and toward 
the long-term loss reduction goals.
    Number two, increase the focus on technologies and 
information that will reduce infrastructure losses. And three, 
establish a comprehensive national loss database that can be 
used as a guidepost for R&D strategies. And four, utilize loss 
modeling to identify essential R&D topics.
    In fact, you may ask, how much damage do wind hazards do in 
the United States each year? To that we respond, even though 
wind hazards are detailed in the media and they trigger large 
government relief efforts, we actually have only a limited 
understanding of the actual loss levels and how they vary from 
year to year.
    Lack of accurate loss data can be traced to a number of 
factors. First, most of the data on wind and hazard losses are 
actually never collected or analyzed. Two, wind losses are 
driven by the climate, which is extremely variable from year to 
year. Three, in many cases it is difficult to identify unique 
wind losses as opposed to say flood losses, which may occur at 
the same time. Our vulnerability to wind losses is increasing, 
as I discussed previously. And finally, there are ambiguities 
in the way that wind and hazard losses are characterized from 
an economic standpoint. We talked about that at lunch, as I 
recall.
    Considering the above factors, the current understanding of 
wind losses has been derived from a range of sources with 
widely varying analytic techniques and they really can only be 
considered estimates rather than any kind of measurements.
    And so with that background and using the data in our own 
study, we would estimate that the value for wind related losses 
currently in the United States is on the average of 
approximately $7 billion per year. But I would emphasize that 
that's a highly uncertain number and a central recommendation 
of the RAND study was to emphasize the need to improve the 
accuracy of these data to provide better guideposts for federal 
R&D policy related to natural hazards.
    With that I close and I appreciate the opportunity to be 
here today.
    [The prepared statement of Dr. Meade follows:]

                  Prepared Statement of Charles Meade

    Mr. Chairman: I am pleased to be here to day to discuss the 
research and findings from the recent RAND report ``Assessing Federal 
Research and Development for Hazard Loss Reduction.'' This work was 
carried out at the request of the Office of Science and Technology 
Policy to help formulate a better understanding of the role of 
government-sponsored R&D in the Nation's efforts to reduce hazard 
losses. For this task, RAND conducted an analysis of the full range of 
federal R&D expenditures guided by the following questions:

        <bullet>  What is the distribution of federal R&D funding 
        across various types of hazards?

        <bullet>  What types of research activities are supported by 
        federal funding?

        <bullet>  What criteria determine the allocation of these 
        funds?

        <bullet>  How do these R&D efforts contribute to hazard loss 
        reduction?

    With this approach we carried out an analysis to determine whether 
there are holes or imbalances in the federal R&D portfolio and whether 
key areas are being overlooked. We used the results of our analysis to 
develop a policy framework that will help in future attempts to assess 
the ``payoffs'' of various kinds of R&D, including which efforts offer 
the greatest potential for reducing hazard losses. Finally, we 
considered the larger issues about the demands placed on R&D to 
``solve'' the problem of hazard losses. Ultimately, we offered 
suggestions for new ways to frame expectations and demands for R&D in 
addressing the problem of hazard losses.
    The RAND study was motivated by the problem of rapidly growing 
economic losses from natural hazards. While the United States has 
experienced a decline in the numbers of lives lost due to earthquakes, 
hurricanes, floods, tornadoes, and droughts, over the past few decades, 
the associated costs of natural disasters escalated dramatically over 
the same period. Between 1978 and 1989, the Federal Emergency 
Management Agency (FEMA) paid out about $7 billion in disaster relief 
funds. In the next dozen years, however, payouts increased almost 
fivefold, to over $39 billion.
    The primary cause for the rise appears to be growing population in 
vulnerable areas. Demographic changes, most dramatically, the mass 
human migration to coastal and other high-risk areas, have made 
disasters increasingly costly events. At the same time, increasing 
concentrations of people and property have escalated the complexity of 
the Nation's infrastructure--public utilities, critical facilities, 
transportation systems, communications networks, and the built 
environment. As the density of the infrastructure increases, 
particularly in urban areas, the potential losses from natural hazards 
become greater still.
    Because of the heavy financial burden imposed by losses across all 
sectors of the economy, pressure on the Federal Government to act 
quickly and effectively to ``solve'' the problem has been growing. With 
this motivation, the federal strategy to address the hazard loss 
problem takes many forms, from providing disaster relief to assisting 
in the regulation of private insurance to encouraging mitigation 
efforts through various incentives. A key weapon in the Federal 
Government's arsenal is its support of research and development (R&D). 
Specifically, it funds work carried out by the research community to 
improve understanding of, preparation for, and response to hazards and 
their impacts.
    To answer the questions posed by OSTP, we needed a clear view of 
hazard loss reduction efforts in the federal R&D portfolio. We 
therefore conducted an analysis of the federal R&D portfolio for a 
particular year, FY 2001. Our objective was to identify R&D 
expenditures that support the goals of reducing losses from natural 
hazards such as floods, hurricanes, earthquakes, and wildfires. Because 
the federal budget does not have a separate R&D budget, much less one 
focused solely on hazard loss, we had to develop a set of detailed 
criteria to identify hazard loss R&D activities within larger research 
programs across the Federal Government.
    Our data sources were RAND's RaDiUS database and other sources of 
federal budget information. (RaDiUS stands for research and development 
in the United States and it includes all federally funded R&D 
expenditures.) The RaDiUS database details all federal R&D funding as 
determined by computer records from the Office of Management and Budget 
(OMB). We also looked at individual agency budget requests, as well as 
annual R&D reports generated by the Office of the Federal Coordinator 
for Meteorology, which encompasses the broad range of weather-related 
federal programs.
    Using these sources, we were able to analyze funding from a number 
of perspectives, quantifying expenditures by agency, hazard type, and 
program goals. Our key findings were as follows:

        <bullet>  Explicit hazard loss reduction programs receive the 
        least funding. Programs dedicated solely to hazard loss 
        reduction R&D receive the smallest share of R&D funds. The 
        largest fraction goes to basic and applied research programs at 
        the National Science Foundation (NSF), the National Oceanic and 
        Atmospheric Administration (NOAA), and the National Aeronautics 
        and Space Administration (NASA). The second largest category is 
        operational support R&D, focused almost exclusively on weather-
        related hazards.

        <bullet>  The largest fraction of R&D spending supports work on 
        weather hazards and broadly related research on climatology, 
        atmospheric science, and oceanography. The second largest 
        category of R&D funding--a distant second--is research on 
        earthquakes. While losses from weather-related hazards are 
        estimated to be approximately twice as large as those from 
        earthquakes, the allocation of R&D funds between these 
        categories differs by more than a factor of 10.

        <bullet>  Much of the R&D spending supports short-term 
        prediction capabilities. Closer examination of the funding for 
        weather-related hazard R&D shows that most of the effort is 
        focused on short-term prediction efforts, which have limited 
        loss reduction potential within the full range of losses from 
        natural hazards. Prediction can generally move individuals out 
        of harm's way, but R&D focused on long-term loss reduction 
        strategies could improve the resilience of communities and 
        infrastructure, protecting lives and property in a far more 
        substantial way.

    This emphasis on weather-related hazards and prediction means that 
other areas of hazard R&D receive comparatively less attention. 
However, decisionmaking in this policy environment is difficult. 
Despite its investments in hazard loss reduction R&D, the government 
has yet to establish the essential framework that would enable these 
efforts to operate efficiently and show their own merit. Developing a 
more thoughtful strategy for funding allocation depends on the ability 
to accurately determine the losses resulting from hazards and the 
losses prevented or reduced by R&D efforts. In turn, it also depends on 
the willingness of individuals and communities to implement measures 
designed to reduce hazard losses. In other words, decisionmakers face 
both quantitative and qualitative challenges in seeking to strengthen 
the effectiveness of federal hazard loss R&D efforts.
    First and foremost among these challenges is the lack of detailed 
data on losses from natural hazards. (This quantitative gap has been 
identified and examined in a number of previous policy studies.) 
Without such data, it is impossible to gauge either the effectiveness 
of new R&D strategies or their ultimate payoff in terms of losses 
prevented. Detailed loss data would go a long way toward enabling a 
more cost-effective distribution of R&D funds.
    From a qualitative standpoint, perhaps the most daunting obstacle 
policymakers face is human nature. Human behavior ultimately controls 
the scale of disaster losses and thus exerts a major force on R&D 
policy decisions for hazard loss reduction. While R&D provides useful 
technical information, its effectiveness is determined by human 
decisionmaking on issues such as whether to evacuate, where to locate 
new construction, and whether to implement known mitigation measures in 
existing communities.
    With this background, my following remarks address the Committee's 
questions for this hearing.

1)  Is the United States growing more or less vulnerable to damage from 
wind hazards, and why? What are some of the top opportunities for, and 
primary barriers to, reducing these vulnerabilities?

    The U.S. has grown more vulnerable to wind hazards because of two 
trends.
    First, increasing development near the Atlantic and Gulf coast has 
created large populations and infrastructures that are vulnerable to 
hurricanes. The impact of this development is clearly indicated in the 
historical trend of insurance payouts for U.S. hurricane losses (see 
Figure 1). Starting in the early 1980's, the data show increasing 
losses with time, with an extremely large peak in 1992, associated with 
Hurricane Andrew. Today, almost all hurricane warnings require huge 
evacuations with attendant logistical problems and economic losses. In 
1999, warnings for Hurricane Floyd resulted in the largest peacetime 
evacuation in the United States as three million residents along the 
Atlantic coast moved inland from Florida to North Carolina.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Data on insured hurricane losses, from the insurance industry, 
provide a stark measure of the increasing vulnerability. From 1949 to 
1999, catastrophic hurricanes in the United States caused direct 
insured property losses totaling $37.9 billion--or an average of $743 
million per year. To allow comparisons over long time periods, the 
insurance industry adjusts these values accounting for inflation, 
population growth, and changes in real tangible wealth. On this basis, 
the average annual loss from 1944 to 1988 was $1.1 billion. From 1988 
to 1999, the values were almost 4 times larger ($4.2 billion). A 
portion of the increase was driven by the payouts from Hurricane 
Andrew, which was the largest insured property loss from a natural 
disaster in U.S. history. Even if one excludes the losses from Andrew, 
the payouts are almost double the historical trends, suggesting that 
the increased payouts reflect increasing vulnerability in addition to 
any fluctuations in hurricane frequency.
    The second trend is associated with the prevalence of manufactured 
housing in the central part of the United States, which is susceptible 
to tornadoes. Because these structures have only minimal wind 
resistance, and no basements, the injury rate is extremely high for 
occupants during high winds. Analyzing historical data, researchers at 
the National Oceanographic and Atmospheric Administration estimate that 
the tornado death rate is approximately 20 times higher for residents 
of manufactured housing compared to conventional structures. In the 
Midwest, manufactured housing represents approximately 10 percent of 
current construction.
    The most important feature of these vulnerabilities is that they 
could be reduced through appropriate R&D efforts. For example, better 
understanding of hurricane wind fields after landfall could be used for 
improved design and engineering of coastal structures. And experiments 
and testing of manufactured housing could be used to design more 
resilient homes.

2)  Approximately how much money does the Federal Government spend per 
year on wind hazard mitigation research and development? Where is this 
effort currently focused (i.e., direct vs. indirect research, 
engineering, economic, meteorological, etc.)? How could the federal 
wind hazard research and development portfolio be refocused or 
otherwise strengthened to improve mitigation in the United States?

    Answers to these questions are contingent on the analysis of two 
subsidiary issues, both of which were considered in detail in the RAND 
study, Assessing Federal Research and Development for Hazard Loss 
Reduction.

        1)  What is the definition of government ``research and 
        development'' spending?

        2)  What are the characteristics of R&D for ``wind hazard 
        mitigation''?

    For the first issue, we utilized RAND's RaDiUS database which 
details R&D spending across the Federal Government, as defined and 
classified by the Office of Management and Budget. The OMB definition 
for research and development is ``creative work undertaken on a 
systematic basis in order to increase the stock of knowledge, including 
knowledge of man, culture and society, and the use of this stock of 
knowledge to devise new applications'' (OMB Circular A-11). Excluded 
from this category are product testing, quality control, mapping, the 
collection of general-purpose statistics, experimental production, 
routine monitoring and evaluation of an operational program, and the 
training of scientific and technical personnel. This definition, 
however, is open to the interpretations of numerous individuals at a 
wide range of government agencies. OMB permits individual agencies a 
degree of liberty in determining which activities should be considered 
R&D, allowing each agency to use its own long-standing definition of 
R&D when reporting such activities to OMB. As a result, the activities 
that the Department of Interior considers R&D may not be classified as 
such by the National Science Foundation, whose definition of R&D 
appears more tightly tied to basic laboratory science.
    For the second issue, we examined all federally funded R&D applied 
to natural hazards, and we considered the contributions to hazard loss 
reduction. For FY 2001, this analysis found that approximately 90 
percent of all R&D funds address weather-related hazards, which 
includes wind, flooding, extreme temperatures, drought, and large 
storms. Within this category, most of the funding supports short-term 
forecasting efforts (e.g., weather prediction, hurricane tracking, 
etc.).
    Considering the goals of loss mitigation, this allocation is 
problematic because short-term forecasts only make limited 
contributions to loss reduction. Specifically, forecasts are most 
useful for evacuations (thereby saving lives), but they do very little 
to limit the destruction of property. Reducing these losses requires 
longer-term efforts, involving improved engineering, design, and 
planning for infrastructure construction.
    Considering the purposes of this hearing, we differentiate R&D 
expenditures that support improved engineering and design of structures 
from those that are focused largely on meteorological applications and 
weather forecasting (see table below). Activities in the first category 
largely include wind engineering research, supported by the National 
Science Foundation and the National Institute for Standards and 
Technology. By comparison, the meteorological category encompasses a 
huge range of basic and applied research on the nature of the global 
climate system.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    With this framework, R&D expenditures addressed to infrastructure 
losses were $11,034,000 in FY 2001. By comparison, expenditures for 
meteorological R&D were almost 70 times larger ($755 million).
    The difference in funding between infrastructure and meteorological 
R&D for wind hazards is consistent with one of the principal findings 
from the RAND study applied to all R&D on natural hazards. 
Specifically:

        <bullet>  Much of the R&D spending supports short-term 
        prediction capabilities. Closer examination of the funding for 
        weather-related hazard R&D shows that most of the effort is 
        focused on short-term prediction efforts, which have limited 
        loss reduction potential within the full range of losses from 
        natural hazards. Prediction can generally move individuals out 
        of harm's way, but R&D focused on long-term loss reduction 
        strategies could improve the resilience of communities and 
        infrastructure, protecting lives and property in a far more 
        substantial way.

             Because the policy recommendations from the RAND study 
        were directed to this problem, we restate them here as a 
        strategic framework for considering new R&D initiatives for 
        wind hazards. Specifically, the government needs to address 
        these issues to ensure that new R&D efforts make a meaningful 
        contribution to loss reduction for wind hazards.

        <bullet>  Establish a comprehensive national loss database. 
        Data on hazard losses are central for a host of concerns, 
        including prioritizing R&D efforts, planning budgets for states 
        and localities, developing contingency operations, and 
        conducting cost-benefit analyses for specific measures that 
        will allow policymakers to see the relative value of various 
        R&D efforts and will help citizens to understand the value of 
        implementing long-term mitigation procedures.

        <bullet>  Utilize loss modeling to identify essential R&D. Loss 
        modeling, which simulates the impacts of potential disasters, 
        can help determine which hazards generate the greatest 
        avoidable losses, the effects of mitigation steps on loss 
        totals, the time scale for losses, and the budget needs for 
        vulnerable regions to prepare for a prospective hazard. These 
        models hold great promise for prioritizing research needs by 
        weighing the costs and benefits of various mitigation measures 
        against the estimated losses from specific hazards.

        <bullet>  Re-orient R&D activities toward longer-term loss 
        reduction efforts. A shift to longer-term, less prediction-
        oriented efforts holds great potential for reducing losses. The 
        development of technologies to strengthen the built environment 
        can save lives, protect property, and dramatically reduce the 
        costs of rebuilding after a disaster.

        <bullet>  Increase the focus on technologies and information 
        that will reduce infrastructure losses. Damage to 
        infrastructure--e.g., buildings, public roads and highways, 
        bridges, water and sewer treatment plants, and emergency 
        services--results in casualties as well as extensive economic 
        losses. The development of improved technologies and 
        information systems can help limit such losses. For instance, 
        greater R&D focus on funding for communications and remote 
        sensing capabilities, geographic information and global 
        positioning systems (GPSs), and modeling and simulation 
        techniques should lead to considerable damage reduction.

3)  According to National Weather Service estimates, how much damage do 
wind hazards cause in the United States each year? How are these 
numbers compiled?

    Each year, the United States suffers significant losses from wind 
hazards. In the spring, tornadoes wreak havoc in the Midwest. In the 
summer and fall, hurricanes come ashore, damaging coastal and inland 
communities. In the case of Isabel in September 2003, this included 
massive blackouts in cities hundreds of miles from the point of 
landfall.
    Even though these events are detailed in the media, and they 
trigger large government relief efforts, we have only a limited 
understanding of the actual loss levels and how they vary with time. In 
this respect the problem of quantifying wind losses is a component of 
the larger challenge of quantifying losses from all natural hazards
    The lack of accurate loss data and the implications for public 
policy have been noted in a number of recent studies from the National 
Academy of Sciences, the Heinz Center for Environment and Public 
Policy, and RAND. The origin of the problem can be traced to a number 
of factors:

        <bullet>  Most of the data on wind and hazard losses are never 
        collected or analyzed.

           The largest collection of data on wind losses is maintained 
        by the Property Claims Service (PCS), which tracks insurance 
        industry payouts to policyholders following a disaster. While 
        this is a valuable resource for understanding insurance 
        industry losses, it is certainly not a complete picture of wind 
        losses in the United States. Moreover, the database is only 
        available to professionals in the insurance industry. 
        Additional unmeasured components of wind losses occur in the 
        following categories:

                 Federal: A number of agencies provide disaster relief, 
                but there is no centralized recording of these 
                expenditures.

                 Private charities: Organizations such as the Red Cross 
                provide vital relief services, using donated and 
                internal resources.

                 State and municipal governments: These governments 
                incur disaster losses in a number of forms, including 
                relief payouts, overtime for emergency workers, and 
                damage to municipal facilities.

                 Individuals and private companies: These entities 
                suffer losses which are unmeasured and uncompensated by 
                the above sources.

        <bullet>  Wind losses are driven by the climate, which is 
        extremely variable from year to year.

           As a result, the level of wind losses can vary tremendously 
        from year to year. However, the origins of the variability are 
        complex. Part of the problem is driven by inter-annual climate 
        fluctuations, which produce large variations in the number of 
        windstorms. For example, over the past 90 years, the annual 
        number of hurricanes making landfall on the United States has 
        ranged from 8 to 0. By comparison, the annual number of 
        reported tornadoes has ranged from approximately 500 to 1500 
        over the past 50 years. However, these changes only explain 
        part of the loss variations, because the loss levels are also 
        driven by event magnitudes and locations, which are 
        uncorrelated with the number of storms in a given year. 
        Hurricane Andrew emphasized this problem in 1992. The hurricane 
        resulted in the largest insurance payments for any natural 
        disaster in the United States ($15.5 billion), yet it occurred 
        in a year with only an average number of storms.

        <bullet>  In many cases, it is difficult to identify unique 
        ``wind'' losses.

           Except for tornadoes, most wind hazards are accompanied by 
        large amounts of precipitation (rain, snow, hail), which 
        complicates the process of determining causes of the resulting 
        damage. For example, wind may blow a tree over, but only 
        because rain has softened the ground. Hurricanes are usually 
        accompanied by large amounts of flooding and water damage. And 
        hail may be especially damaging because it hits objects with 
        high wind velocities. Even the detailed Property Claims Service 
        loss database does not distinguish the different origins for 
        these wind-related losses.

        <bullet>  Our vulnerability to wind hazards is increasing.

           As a result, trends in wind losses are strongly influenced 
        by societal decisions regarding the design and location for new 
        infrastructure. These issues are discussed in greater in 
        response to Question 1.

        <bullet>  There are ambiguities in the way that wind and hazard 
        losses are characterized.

           While losses are usually reported as an aggregate number, it 
        is important to distinguish the types of losses in an economic 
        context. At the top level, the most important distinctions are 
        between ``direct'' and ``indirect'' losses. The first category 
        refers to losses that are directly associated with the damage 
        (e.g., a house that is destroyed by a tornado), while the 
        second involves the secondary effects of a disaster (e.g., 
        someone looses his job because the disaster impacted his 
        employer). From a measurement standpoint, the direct losses are 
        much easier to quantify, and they only occur around the time of 
        disaster. In contrast, indirect losses are somewhat subjective, 
        and they are spread out in time, as the impacts of a disaster 
        ripples through the economy. Although they are rarely 
        discussed, benefits offset some of these losses (e.g., economic 
        benefits of rebuilding damaged infrastructure). Considering all 
        of these loss categories, the clearly are challenges to making 
        an accurate and complete measurement of the losses for a 
        particular hazard.

    Considering the above factors, the current understanding of wind 
losses has been derived from a range of sources, with widely varying 
analytic techniques. As such, the results of this work are presented as 
estimates, rather than measurements of hazard losses. At this level of 
detail, the estimates cannot be used to assess the effectiveness of 
different R&D strategies. However, they do provide a top-level 
description of the loss magnitudes and the variation among different 
types of hazards. With this background, the estimated annualized losses 
for wind related hazards, from a variety of sources, are presented in 
the following table.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A central recommendation of the RAND study emphasized the need to 
improve the accuracy of these data to provide better guideposts for 
federal R&D policy related to natural hazards.
    I appreciate the opportunity to be here today.

    This product is part of the RAND Corporation testimony series. RAND 
testimonies record testimony presented by RAND associates to federal, 
State, or local legislative committees; government-appointed 
commissions and panels; and private review and oversight bodies. The 
RAND Corporation is a nonprofit research organization providing 
objective analysis and effective solutions that address the challenges 
facing the public and private sectors around the world. RAND's 
publications do not necessarily reflect the opinions of its research 
clients and sponsors.

                      Biography for Charles Meade

    Charles Meade, Ph.D., is a Senior Scientist with the RAND 
Corporation. His research focuses on risk management for catastrophic 
threats such as, natural disasters, terrorism and nuclear 
proliferation. For the White House Office of Science and Technology 
Policy, Dr. Meade carried out a comprehensive analysis of R&D focused 
on natural disasters, and he recently led a terrorism risk reduction 
study for the largest worldwide banking consortium. In the past 18 
months, Dr. Meade's research contributed to the work of the high-level 
Gilmore Commission, the National Response Plan promulgated by the 
Secretary of Homeland Security, and the White House review of critical 
infrastructure protection strategies. Previously, he led a large study 
for General Shalikashvili on U.S. efforts to reduce threats from 
nuclear proliferation. He also performed a comprehensive analysis of 
seismic mitigation strategies for all California hospitals, as mandated 
by state seismic safety laws. From 1995 to 1997, Dr. Meade served at 
the National Research Council of the U.S. National Academy of Sciences 
where he directed policy studies in the Earth Sciences. From 1990-1995, 
he was a scientist at the Carnegie Institution of Washington where he 
led a research program in experimental geophysics. Dr. Meade is the 
author of 42 peer-reviewed research publications, nine policy studies 
published by the National Academy of Sciences, an edited book on the 
Comprehensive Nuclear Test Ban Treaty, and a syndicated op-ed on 
warnings for terrorist threats. He received a Ph.D. in Geology (1990) 
and a B.S. in Political Economy (1983) from the University of 
California, Berkeley.

    Mr. Neugebauer. Thank you, Dr. Meade.
    Dr. Bienkiewicz.

 STATEMENT OF DR. BOGUSZ BIENKIEWICZ, PROFESSOR, DEPARTMENT OF 
          CIVIL ENGINEERING, COLORADO STATE UNIVERSITY

    Dr. Bienkiewicz. Thank you, Mr. Chairman. I very much 
appreciate the opportunity to be in front of this committee. My 
testimony covers the following topics: First, a brief overview 
of research carried out at Colorado State University. Second, a 
brief discussion of windstorm damage in the United States. And 
third, discussion of a proposal for the establishment of a 
National Wind Hazards Reduction Program. These topics are 
addressed in some detail in my written testimony and more 
details I have provided with the report I have attached with 
the testimony. I present brief highlights of some of the 
topics.
    First, I will present a brief overview of wind engineering 
research at Wind Engineering and Fluids Laboratory at Colorado 
State University. For over 40 years this laboratory has been 
the center of excellence for fundamental and applied research 
in wind engineering and fluid dynamics. The core of this 
laboratory is three large boundary-layer wind tunnels that 
allow for realistic modeling of atmospheric boundary layer 
flows. One of the early long-term research programs carried out 
in our laboratories in the 60's was modeling and assessment of 
dispersion of chemical agents released from various sources 
under various atmospheric conditions. Post-9/11 concerns 
regarding potential intentional release of chemical, 
biological, or radiological agents in urban, suburban, and 
rural settings led to renewed interest in any capabilities 
existing in our laboratory.
    A significant number of investigations carried out at our 
laboratory addressed wind effects on buildings and structures 
and mitigation measures to minimize these effects. Wind 
engineering studies included landmark buildings such as World 
Trade Center, Sears Tower, and support facilities for Space 
Shuttle Operation Center at Cape Canaveral. Also we looked at 
other structures, including long-span bridges, roofs, slender 
towers, stacks and others. In addition, research included 
environmental assessment of sitings of fossil and nuclear power 
plants and renewable energy installations. Determination and 
mitigation of wind effects on low-rise buildings and building 
components has been the main thrust of R&D carried out at our 
laboratory in recent years. In 1990 a majority of these 
activities were carried out within the framework of the 
Cooperative Program in Wind Engineering involving faculty and 
students from Texas Tech and from Colorado State University.
    Now we turn our attention to the issue of the impact of 
windstorm hazards in the United States. Hurricanes, tornadoes, 
thunderstorms, and associated phenomena cause an excessive 
level of property losses and human suffering in the United 
States. The average annual financial loss due to this, however, 
is difficult to state with precision, but it exceeds $6 
billion. A single large hurricane could cause losses far in 
excess of the $25 billion attributed to Hurricane Andrew in 
1992.
    As the result of public and private efforts a number of 
wind hazard mitigation measures have been developed over the 
years and put into practice in coastal areas and in other 
regions. These measures led to significant reduction in 
fatalities attributed to wind hazards; however, they did not 
result in reversing a lot of material and business losses and 
ultimately, therefore, it is needed to address this issue.
    These issues are discussed in more detail in my testimony 
and in the attached report. Arguments presented by the 
documents show that a coordinated, comprehensive, and long-term 
effort would be necessary to achieve significant reduction in 
property damage due to wind hazards in the U.S. within the next 
10 to 20 years. It is proposed that such an effort be 
undertaken within the framework of a federal program, the Wind 
Hazards Reduction Program.
    The proposed concept of the National Wind Hazards Reduction 
Program builds on lessons learned from the 25-year experience 
with the National Earthquake Hazards Reduction Program. The 
research and outreach plan proposed for this program is an 
adaptation of the recently revised plan developed for NEHRP.
    This program consists of four components. The first 
component is focused on improved understanding of wind hazards. 
The second component addresses issues of assessment of impact 
of wind hazards. The focus of the third component is reduction 
of impact of wind hazards. The fourth and final component 
addresses issues of enhanced community resilience, education, 
and outreach. Efforts specified for each component consist of 
research and outreach tasks. A detailed list of these tasks is 
provided in the testimony and more details can be found in the 
report.
    Recent revolutionary developments in information technology 
have the potential to reach to unprecedented breakthroughs in 
our effort to reduce property losses and human suffering due to 
wind hazards.
    In closing I would like to offer the following remarks: 
First, reduction of wind-induced property losses and human 
suffering will require a well-planned and coordinated 
comprehensive action. The existing wind engineering and wind 
hazard mitigation infrastructure and human resources provide a 
critical must for starter activities of such undertaking. The 
proposed wind hazards reduction program provides a frame of 
implementation for wind hazard reduction needed within the 
United States. Establishment of such a program would require 
long-term commitment by the Federal Government. And finally, 
delaying implementation of such a program, and a delay in 
adjustment in federal support for wind engineering and 
disciplines related to wind hazard mitigation, will further 
impair this nation's ability to defuse the devastating impacts 
of wind hazards. Thank you.
    [The prepared statement of Dr. Bienkiewicz follows:]

             Prepared Statement of Bogusz (Bo) Bienkiewicz

Introduction

    I very much appreciate the opportunity to appear before this 
committee and to testify in this hearing. In this testimony I will 
first present a brief overview of research activities carried out at 
the Wind Engineering and Fluids Laboratory at Colorado State 
University. Next, I will address issues associated with wind damage and 
damage mitigation in the United States, including a brief assessment of 
vulnerability to wind hazards and opportunities to reduce these 
vulnerabilities. Finally I will discuss a potential for strengthening 
the federal wind hazards research and development in the United States 
through establishment of the National Wind Hazards Reduction Program. 
These topics are discussed in more detail in a report entitled ``Wind 
Engineering Research and Outreach Plan to Reduce Losses due to Wind 
Hazards'' \1\ prepared by American Association for Wind Engineering in 
collaboration with American Society of Civil Engineers. (This report 
appears in Appendix 1: Additional Material for the Record.)
---------------------------------------------------------------------------
    \1\ ``Wind Engineering Research and Outreach Plan to Reduce Losses 
Due to Wind Hazards,'' Report by American Association for Wind 
Engineering, in collaboration with American Society of Civil Engineers, 
February 2004, 37 pp.
---------------------------------------------------------------------------

Wind Engineering Research at Wind Engineering and Fluids Laboratory

    For over 40 years, the Wind Engineering and Fluids Laboratory 
(WEFL), formerly the Fluid Dynamics and Diffusion Laboratory 
(www.windlab.colostate.edu) has been the center of excellence for 
fundamental and applied research in wind engineering and fluid 
dynamics. It is one of the international laboratories where the 
foundations of wind engineering were established. The core of WEFL are 
three large boundary-layer wind tunnels that allow for realistic 
modeling of the atmospheric boundary layer. This laboratory was 
originally established to perform fundamental research on the structure 
of turbulent boundary layer flows and to develop experimental 
techniques for modeling atmospheric boundary layers under various flow 
conditions and thermal stratifications. One of the early long-term 
research programs carried out at WEFL (in 1960-ties) was modeling and 
assessment of dispersion of chemical agents released from various 
sources, under varied atmospheric conditions. Post 9/11 concerns 
regarding potential intentional release of chemical/biological/
radiological agent(s) in urban/suburban/rural settings, as addressed in 
a report recently released by the National Research Council,\2\ led to 
renewed interest by various federal/state and other public entities in 
the unique physical modeling capabilities existing at WEFL.
---------------------------------------------------------------------------
    \2\ ``Tracking and Predicting the Atmospheric Dispersion of 
Hazardous Materials. Implications for Homeland Security,'' National 
Research Council Report, ISBN 0-309-08926-3, National Academy Press, 
Washington, D.C., 2003, 93 pp.
---------------------------------------------------------------------------
    Over the years a great variety of studies of flows and their 
interaction with natural and built environment have been carried out at 
WEFL. A significant number of investigations addressed wind effects on 
buildings and structures and mitigation measures to minimize these 
effects. Wind engineering studies of a number of landmark buildings 
designed and subsequently built in the United States were carried out 
at WEFL. They included the New York's World Trade Center Towers, 
Chicago's Sears Tower and other tall buildings built in the United 
States. In addition, wind engineering studies were carried out to 
determine wind loading on and aerodynamic response of other structures 
(including long-span bridges and roofs, slender towers and stacks) and 
environmental assessments for sitting of fossil fuel and nuclear power 
plants as well as evaluation of sitting and performance of renewable 
energy (solar and wind power) installations. Determination and 
mitigation of wind effects on low-rise buildings and building 
components and systems (including innovative roofing systems) have been 
the main thrust of R&D carried out at WEFL in recent years.
    A representative example of an involvement of WEFL in a coordinated 
effort focused on reducing vulnerability of built environment to wind 
hazards is participation of WEFL in a Cooperative Program in Wind 
Engineering (CPWE) involving researchers and students from Colorado 
State University (CSU) and Texas Tech University (TTU). This 10-year 
program supported by the National Science Foundation consisted of a 
number of research tasks that were addressed by collaborative teams 
comprising of researchers and students (graduate and undergraduate) 
from the two institutions. The CPWE teams made significant research, 
education and outreach contributions in the area of better 
understanding of wind hazards, their impact on low-rise buildings and 
structures, and mitigation of these hazards. It should be noted that 
one of the outcomes of the CPWE research is the design wind speed map 
incorporated in the ASCE 7 Standard.\3\ Other major accomplishments of 
this program included: development of refined physical modeling 
techniques for wind engineering studies of low-rise buildings and 
structures, formulation of hybrid (incorporating analytical, numerical 
and experimental components) models for innovative (permeable, loose-
laid) roofing systems, development of numerical simulation and 
visualization tools, and others. The outcomes of the CPWE effort have 
been subsequently utilized in applied research and in wind engineering 
service carried out at WEFL, TTU and at other institutions and private 
industry. A representative example of transfer of technology advanced 
through the CPWE at WEFL is application of the developed tools to 
predict and mitigate undesired wind effects on innovative roofing 
systems (including systems incorporating photovoltaic solar panels) and 
other roofing products developed by U.S. roofing manufacturers and 
solar energy providers. At TTU, various initiatives were undertaken to 
expand wind hazards research and enhance technology transfer through 
effective outreach activities.
---------------------------------------------------------------------------
    \3\ ASCE 7 Standard, ``Minimum Design Loads for Buildings and Other 
Structures,'' American Society of Civil Engineers, 2002, 330 pp.
---------------------------------------------------------------------------

Impact of Windstorm Hazards in the United States

    Wind-related events inflict major loss of life and material losses 
in the United States. According to a report published by RAND\4\ (RAND 
Report), the annualized material losses attributed to wind hazards 
(inclusive of hurricanes, tornadoes and winter storms) are estimated to 
be $6.3 billion. They exceed by over 40 percent and 60 percent losses 
attributed respectively to earthquakes and floods. As the authors of 
the RAND report point out, attempts to provide the hazard loss data 
(and this applies to any natural hazard) face a number of challenges. 
They include the variability in occurrence times and magnitude of 
events resulting in measurable losses, the length of the averaging 
period used in calculating the annualized losses, and other factors. 
Calculation of the annualized losses is further complicated by lack of 
national database of the losses and changing society's vulnerability to 
wind and other hazards.
---------------------------------------------------------------------------
    \4\ Meade, C. and Abbott, M., ``Assessing Federal Research and 
Development for Hazard Loss Reduction,'' RAND Report, 2003, 65 pp.
---------------------------------------------------------------------------
    The above wind damage statistics are dominated by hurricane events 
of large magnitude. For example, in 1992 Hurricane Andrew resulted in 
$26.5 billion--the highest level of direct and indirect economic losses 
ever sustained in the United States as the result of a natural hazard 
event. Analysis of material damage due to landfall of hurricanes in the 
south-eastern United States over the period 1925-1995 showed that the 
overall damage due to the reported 244 hurricanes and significant 
tropical storms exceeded $340 billion, with most of the damage 
attributed to a relatively small number of strong hurricanes--of 
category 3 and higher on the Saffir-Simpson Scale.\5\
---------------------------------------------------------------------------
    \5\ Willoughby, H.E., ``A Century of Progress in Tracking and 
Warning--Improvements in Observations, Models, and Forecasts,'' in 
Hurricane! Coping with Disaster, Simpson, R. (Editor), American 
Geophysical Union, 2003, pp. 205-216.
---------------------------------------------------------------------------
    The highest level of property damage and loss of life has been 
attributed in the United States to hurricanes, tropical storms, 
tornadoes and thunderstorms. While devastating effects of landfall of 
hurricanes have been primarily limited to the Atlantic and Gulf coast 
regions and the United States territories, hazards due to tornadoes and 
thunderstorms are of concern to inhabitants of most of the Nation. The 
highest numbers of fatalities and injuries are attributed to tornadoes. 
Although most of the largest tornadoes occur in the central United 
States--the tornado alley--tornadoes have been reported both west and 
east of the alley. Tornado touchdowns in Maryland, Utah and other 
states are good illustration of a wide territorial reach of destructive 
tornadoes. Thousands of thunderstorms occur every year all over the 
United States. Strong winds associated with passage of thunderstorms 
(at times accompanied by tornadoes, gust fronts and downbursts) result 
in a significant physical damage and human suffering. Local topographic 
features may lead to amplification of such winds, thus compounding 
adverse wind effects. Mountain ranges may lead to generation of local 
strong winds, such as down slope Chinook wind in Rocky Mountains, Santa 
Anna wind in California and strong winds in the northwestern U.S. and 
in Alaska.
    Overall (approximate) measure of the potential wind hazard is 
represented by wind speed maps. Wind provisions of design codes and 
standards, such as the American Society of Civil Engineers Standard 
ASCE 7,<SUP>3</SUP> provide the recommended design wind speed maps. 
They typically include disclaimers /restrictions to account for 
uncertainties/lack of reliable wind speed data.
    Storm surge and heavy precipitation accompanying hurricanes both 
contribute to overall damage and have a potential for causing loss of 
life and various long-term undesired consequences. Precipitation 
associated with thunderstorms and tornadoes may lead to severe flash 
flooding. Other undesired effects associated with high-wind events 
include disruptions in transportation during winter storms (due to 
whiteouts and/or snowdrifts), summer dust storms and hail storms, and 
adverse wind effects on fires.
    As a result of ongoing public and private efforts a number of wind 
hazards mitigation measures have been developed and put in practice in 
coastal and other regions of the United States. These measures have led 
to significant reduction in fatalities attributed to wind hazards, 
mainly due to improved warning times and life protection systems 
(shelters) in tornado prone regions, and improved forecasting of 
hurricane landfall and more effective evacuation measures in the 
Atlantic and Gulf coast areas of the United States.
    While the available statistics on human losses due to wind hazards 
show an encouraging trend of reduction of loss of life, the data on the 
property losses due to wind hazards exhibit an opposite trend--
increasing annualized losses--with alarmingly increasing rate of change 
in the losses, especially over the past decade. An intensified 
coordinated effort to reduce these losses is desirable.

Barriers to Reducing Vulnerability to Wind Hazards

    In discussion of the material costs of natural disasters, the 
authors of the RAND Report noted a significant increase (reported by 
GAO, in 2002) in the disaster relief funds allocated by FEMA: from $7 
billion over the period of 1978-89 to $39 billion over the next twelve-
year period.
    The authors identified a growing (indeed ``exploding'') population 
in areas vulnerable to natural hazards (such as coastal areas) as one 
of primary reasons for such a dramatic increase in damage and the 
associated relief funds. A significant portion of these funds has been 
used to offset material losses due to wind hazards. It has been 
postulated that the above demographic trend will continue and that 
significant measures need to be urgently undertaken in order to address 
the issue of the increasing material losses (and associated relief 
funds) due to wind hazards.
    A number of factors impeding mitigation of damage due to wind and 
other natural hazards have been identified by natural hazards 
mitigation community comprising of researchers and practitioners of 
broad background, decision and policy makers, and others. The domain of 
their evaluation included research and development, technology transfer 
and implementation, as well as outreach and education. Some of the 
impediments to effective mitigation of losses due to natural (including 
wind) hazards were postulated to be coupled with federal funding 
policies. The authors of the RAND Report concluded that in a number of 
programs explicit hazard loss reduction activities received the least 
R&D funding, while much of the spending supported short-term prediction 
capabilities of limited potential to long-term loss reduction that 
could improve the resilience of communities and infrastructure, and 
ultimately result in substantial reduction of losses. A large disparity 
between federal R&D funding allocated for different natural hazards 
also was noted.
    As was reported before the Committee of Science of the U.S. House 
of Representatives (testimony by Dr. McCabe,\6\ during hearing on 
October 11, 2001), the average annual overall federal investment in 
research to mitigate impacts of wind hazards is estimated to be $ 5-10 
million. It is instructive to compare this amount with FY 2001 funding 
allocations for fundamental research by National Science Foundation: 
Civil & Mechanical Systems--Wind--$2.6 million, Earthquakes--$20.8 
million; Atmospheric Sciences: Wind+Flood+Drought--$183.8 million, RAND 
Report, p. 23. It should be noted that the federal funding in excess of 
$100 million per annum has been invested over the past two decades to 
support activities geared towards reduction in earthquake losses, 
through the National Earthquake Hazards Reduction Program. A comparison 
of these funding levels with the quoted earlier estimate for the 
annualized wind hazards losses suggests that a significant increase in 
federal investment in activities geared towards reduction of losses due 
to wind hazards is urgently needed, justified, and has considerable 
potential for short- and long-term payoff.
---------------------------------------------------------------------------
    \6\ McCabe, S.L., Testimony on behalf of American Society of Civil 
Engineers before the Subcommittee on Environment, Technology and 
Standards, of the Science Committee, U.S. House of Representatives, 
October 11, 2001.
---------------------------------------------------------------------------

Wind Engineering/Wind Hazards Research Needs

    A list of wind engineering research areas identified as critical 
for reduction of wind-induced loses is provided in the report published 
by American Association for Wind Engineering.\7\ It included: 
Collection of wind speed data using robust instrumentation and state-
of-the art technology to map detailed structure of the wind, 
topographic effects, and long-term climate effects; Simulation of 
hurricanes and their wind fields and other extreme wind effects for 
statistical analysis of wind, wind loads, and wind-induced response of 
structures and their components; Modeling of wind-structure 
interaction, including effects of integral wind loads on structural 
systems, components and cladding, effectiveness of retrofitting 
schemes, effects of structural fatigue and impact by wind-generated 
missiles, design of cost effective tornado shelters and shelters for 
hurricane zones to minimize evacuation; Study of internal load paths, 
performance of structural systems, and effectiveness of connections 
between structural components; Field monitoring of structures in 
natural environment and large-scale tests in simulated loading 
environment; Research in debris impact potential in windstorm and 
development of impact resistant building components; Mapping of wind 
climate in urban areas; Health monitoring and structural control 
studies for mitigation of wind effects; Application of effective 
numerical schemes using computational fluid dynamics to determine the 
wind environment and wind loading on and response of buildings, 
structures, transportation systems and other critical components of 
civil engineering infrastructure, and to mitigate these effects; 
Development of effective techniques for collection and rapid archiving 
and dissemination of data acquired during post-disaster investigations; 
Development of cost-effective retrofit techniques to enhance wind 
resistance of existing structures; and Development and application of 
reliable techniques for cost-benefit analysis of wind hazards 
mitigation measures and other socio-economic evaluations.
---------------------------------------------------------------------------
    \7\ ``Wind Engineering: New Opportunities to Reduce Wind Hazard 
Losses and Improve Quality of Life in the USA,'' American Association 
for Wind Engineering Report, August 1997, 74 pp.
---------------------------------------------------------------------------

Opportunities to Reduce Vulnerability to Wind Hazards

    The existing R&D infrastructure and expertise in wind engineering 
and other disciplines pertinent to mitigation of wind hazards, recent 
advances in information technology as well as lessons learned from 
programs focused on mitigation of other natural hazards, especially 
earthquakes, form the basis that provides unique opportunities to 
enhance our efforts to reduce vulnerabilities to wind hazards.
    The existing research infrastructure includes laboratory and field 
facilities used to investigate wind characteristics and wind effects on 
buildings and structures and their components. The main components of 
the laboratory infrastructure are long-test-section wind tunnels that 
allow for realistic modeling of boundary-layer winds and other flow 
modeling facilities that have been employed in exploratory modeling of 
other wind phenomena, including tornadoes, hurricanes and downburst 
outflows. Academic institutions in the United States involved in 
laboratory modeling of wind effects include: Colorado State University, 
Texas Tech University, Clemson University, Iowa State University, 
Louisiana State University and University of Notre Dame.
    Over the years, extensive wind engineering field studies of wind 
effects on low-rise buildings and wind hazards mitigation have been 
carried out by researchers at Texas Tech University, at two sites in 
Lubbock, TX. A field site to carry out wind engineering investigations 
primarily focused on manufactured homes was established (and jointly 
operated by the DOE's Idaho Environmental Engineering Laboratory and 
University of Wyoming) 30 miles west of Laramie, WY.
    Several universities have established programs to collect high 
fidelity hurricane wind field information near ground, and wind loading 
on building envelope and building performance during strong wind 
events. A number of houses at various locations along Atlantic and Gulf 
coasts have been instrumented or outfitted with wiring and brackets for 
easy installation of instrumentation. These efforts have been carried 
out by researchers from Clemson University, University of Florida at 
Gainesville and University of Illinois at Urbana-Champagn. Several wind 
engineering research groups (Texas Tech University, Clemson University 
and University of Florida at Gainesville) use mobile towers (typically 
30 feet in height) strategically positioned on an expected path of 
hurricanes or other high-wind events. These instrumented towers are 
equipped with back-up power supply and they are capable of withstanding 
wind speeds up to 200 mph. Recent upgrades of the towers included use 
of wireless phone communication (successfully deployed for the first 
time during landfall of Hurricane Isabel in 2003) to transmit the 
acquired data to a central database in near-real time.
    Another example of an innovative application of the emerging 
sensors, data acquisition and transmission technology is a recent study 
coordinated by researchers from University of Notre Dame who have been 
supplementing traditional monitoring devices in measurement of wind-
induced response of tall buildings using the Global Positioning System 
(GPS).
    The above cases are only a representative sample of applications of 
new technologies incoroporated in current R&D focused on mitigation of 
wind hazards. The revolutionary role of information technology (IT) and 
unmatched opportunities resulting from its application in efforts 
geared to reduce vulnerability to natural disasters were discussed in 
RAND Report. Specific applications of IT in monitoring and simulating 
seismic hazards and structural response due to earthquakes, as well as 
in remote data acquisition and interpretation coupled with rapid 
communication and visualization to aid broad range of stakeholders 
(ranging from R&D through decision-making and emergency personnel) were 
discussed in EERI Report.\8\ The described applications (of IT) appear 
to have a tremendous potential to aid tasks to reduce vulnerability to 
wind hazards and to coordinate local and regional planning to prevent/
minimize wind-induced losses.
---------------------------------------------------------------------------
    \8\ ``Securing Society Against Catastrophic Earthquake Losses--A 
Research and Outreach Plan in Earthquake Engineering,'' Earthquake 
Engineering Research Institute Report, April 2003, 62 pp.
---------------------------------------------------------------------------

Benefits of Coordinated Wind Hazards Mitigation Research

    Reducing wind hazards risk is a long-term commitment that builds on 
past experience and advances in our understanding of wind, wind-induced 
loading on and response of structures, impact of wind-generated debris, 
and effects of other natural phenomena associated with strong winds 
(for example surge, hail). Advances in quantifying the physical nature 
of strong winds, coupled with continuing improvements in engineering 
methods, will result in significantly increased wind hazard safety, as 
structures existing in critical wind zones are retrofitted, and new and 
replacement structures and infrastructure systems are constructed. 
Research on wind hazards can significantly reduce economic losses 
resulting from future strong-wind events. Whereas several success 
stories can be cited, there is a pressing need to continue such 
research in the future, and at an increased rate.
    Because our nation's livelihood is highly dependent on business 
activity, a future wind event, even one with only a moderate damage 
potential, can result in significant economic loss. In an extreme case, 
the recurrence of a hurricane with the magnitude of hurricane Andrew, 
with landfall passage over a metropolitan area (such as Miami, Florida) 
would be devastating. Total loss associated with such event is 
estimated to exceed $30 billion, with a significant portion of this 
loss attributable to interruptions in business operations. The tragic 
events of 9/11 in New York City underscore the severity of economic 
impact of a major disruption in urban infrastructure and interruptions 
in business activities.
    If relevant and timely research coupled with effective technology 
transfer can reduce the economic loss from a single future strong wind 
event by even a very conservative 10 percent, the payoff on the 
investment will be in the billions of dollars.

Proposal for Establishment of National Wind Hazards Reduction Program 
                    (NWHRP)

    In context of arguments put forth in this presentation and findings 
advanced elsewhere (AAWE Reports,<SUP>1<SUP>x-8</SUP>7</SUP> RAND 
Report,<SUP>4</SUP> NRC Report,\9\ NIST Report\10\ ), and in view of 
the current and anticipated future unacceptably high level of wind 
damage it should be apparent that effective countermeasures are 
urgently needed and can be developed to stem and reverse these 
undesirable trends. Evidence has been also presented to support a 
proposition that an integrated and coordinated long-term effort with 
well defined, achievable and measurable goals in R&D, education and 
outreach will be necessary to significantly reduce societal 
vulnerability to wind hazards with 10-20 year time horizon. Such a goal 
could be accomplished through establishment of the National Wind 
Hazards Reduction Program (NWHRP). The establishment of such a program 
was proposed in the past by Jones et al.\11\ and others (NRC 
Report,<SUP>9</SUP> NIST Report<SUP>10</SUP> ).
---------------------------------------------------------------------------
    \9\ ``Wind and the Built Environment--U.S. Needs in Wind 
Engineering and Hazard Mitigation,'' National Research Council Report, 
ISBN 0-309-04449-9, National Academy Press, Washington, D.C., 1993, 130 
pp.
    \10\ Marshall, R.D., Editor, ``Proceedings of Workshop on Research 
Needs in Wind Engineering,'' Technical Report NISTIR 5597, Building and 
Fire Research Laboratory, National Institute of Standards and 
Technology, Gaithersburg, MD, 1995, 69 pp.
    \11\ Jones, N.P., Reed, D.A., and Cermak, J.E., ``Wind Hazard 
Reduction Program,'' Journal of Professional Issues in Engineering, 
ASCE, 121 (1), 1995, pp. 41-46.
---------------------------------------------------------------------------
    The concept and implementation of NWHRP program could be built on 
lessons learned from the 25-year experience with the National 
Earthquake Hazards Reduction Program (NEHRP). The starting point in 
this process could be the revised concept of the NEHRP described in the 
EERI Report.<SUP>8</SUP> Adaptation of this model for the NWHRP is 
presented in the AAWE Report.<SUP>1</SUP> The main components of the 
program are summarized in Table 1, while the research and outreach 
tasks are listed in Table 2.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Implementation of the above concept is based on a sequential 
progression from Component A through Component D. Significant number of 
outreach tasks are planned to be activated at appropriate phases of 
progress in research tasks of all the components of the program, as is 
illustrated in Table 2.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In formulation of the NWHRP plan attempts were made to develop a 
dynamic program that would allow for timely use of outcomes of ongoing 
(in the United States and elsewhere) related research and outreach 
efforts addressing mitigation of losses due to wind and other natural 
hazards. A particular attention was given to activities in the area of 
earthquake engineering, carried out within and beyond the framework of 
NEHRP.

Potential Impact of Information Technology

    Recent developments in information technology (sensors; data 
collection, transfer, processing and visualization; experimental and 
computational simulation; high-end computing; and adaptive networking) 
have a potential to lead to unprecedented breakthroughs in our efforts 
to reduce property losses and human suffering due to wind hazards. 
These advances in information technology (IT) have already 
significantly influenced activities addressing impacts of natural 
hazards. Two representative examples of relevance to the NWHRP are 
discussed below.
    The first example is the Network for Earthquake Engineering 
Simulation (NEES). Significant federal investment has been authorized 
by Congress for the development of NEES--$82 million over the 2002-2004 
period. This funding was allocated for construction/enhancement of 
engineering laboratories at fifteen universities and development of an 
advanced networked and grid-enabled experimental, data, and 
computational infrastructure. This resource makes possible 
implementation of a concept of ``colaboratory'' which enables 
researchers to remotely interact with each other and with their 
simulation and computational work via ``telepresence'' tools. 
Application of these concepts and infrastructure appears to have a 
great potential for breakthroughs in wind hazards research and 
outreach. Modest investment to upgrade wind engineering experimental 
(laboratory/field) and computational infrastructure, coupled with 
shared use of the NEES networking capabilities would allow for an 
efficient exploratory application of these technologies in the NWHRP 
activities.
    The second example is utilization of low-cost, small-size (3 ft  3 
ft) networked radars that can be placed on existing cellular towers. 
These short-range sensors can provide information on low-level winds 
and other properties of the atmospheric surface layer. They are 
currently being developed by one of the Engineering Research Centers 
(supported by NSF) and they are scheduled to be tested in mid 2005, in 
a networked configuration covering approximately 20 percent of the 
State of Oklahoma. This technology appears to have potential for 
application in mapping of wind hazards and in other activities of the 
NWHRP.

Concluding Remarks

    As discussed in this presentation, significant coordinated federal 
effort will be required to reverse trend of increasing property losses 
and human suffering due to wind hazards. The proposed research and 
outreach plan represents a comprehensive approach to this problem. 
Implementation of this plan through activities of the proposed NWHRP 
promises to have a very high level of success in achieving significant 
reduction in wind hazards impacts within the next decade.
    Recent revolutionary developments in information technology 
(including sensors, data collection, transfer, processing and 
visualization, experimental and computational simulation, high-end 
computing and networking infrastructure) have a potential to lead to 
unprecedented breakthroughs in our efforts to reduce property losses 
and human suffering due to wind hazards. Sizing the above opportunities 
will require federal investment to upgrade the existing and develop new 
research and outreach infrastructure and human resources.
    Reduction in material losses and human suffering within the next 
decade will not be possible without a significant and long-term federal 
commitment. Moreover, delay in adjustment in federal support in these 
areas will undoubtedly lead to further (and probably accelerated) 
deterioration in currently existing national research and outreach 
infrastructure and in human resources in wind engineering, wind hazards 
mitigation and in related disciplines.

                    Biography for Bogusz Bienkiewicz

    Dr. Bogusz (Bo) Bienkiewicz is a Professor of Civil Engineering and 
Director of the Wind Engineering and Fluids Laboratory at Colorado 
State University in Fort Collins, CO. He holds a Ph.D. in Civil 
Engineering from Colorado State University. For over 25 years he has 
been involved in wind engineering research at the Wind Engineering and 
Fluids Laboratory and in teaching in the Department of Civil 
Engineering at Colorado State University. His professional service and 
outreach have included participation in various activities of the 
American Association for Wind Engineering and in technical committees 
of the American Society of Civil Engineers. He currently serves as 
President of the American Association for Wind Engineering.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Neugebauer. Thank you. Mr. Shofner.

STATEMENT OF BRYAN L. SHOFNER, PRESIDENT, SHOFNER & ASSOCIATES 
                     INSURANCE AGENCY, INC.

    Mr. Shofner. Thank you, Mr. Chairman, Congressman Moore, 
for allowing me to be here today. It is truly an honor to visit 
with you on this matter. Again, as you said, my name is Bryan 
Shofner. I am the President of Shofner & Associates Insurance 
Agency, Incorporated. I am an independent insurance agent 
selling primarily property and casualty insurance for both 
residential and commercial clients. As an independent insurance 
agent I represent several insurance companies and place my 
customers' business with the company that best satisfies their 
needs.
    I have been asked to testify on the status of wind damage 
mitigation research as well as what steps the industry has 
undertaken to reduce damage from wind. Insurance companies have 
significant information on risk factors as well as loss 
severity and loss frequency by a given area of the country, 
state, county, or city. Companies can determine the likelihood 
of the given loss, which is used in the calculation of the 
insurance premium that is charged to a specific policyholder or 
applicant for insurance. This statistical information is 
proprietary and intended for the sole use of that particular 
company to aid in the rate making process. On the other hand, 
insurance companies have very little information on wind damage 
mitigation techniques and do very little research on wind 
damage reduction. Insurance companies do not have the 
engineering staff to accomplish this research. The offshore 
reinsurance industry does some minor research, but this 
information is also proprietary.
    There are other organizations that provide statistical and 
actuarial information, such as the Insurance Services Office. 
They provide this information to those companies who do not 
have their own data. ISO publishes information about loss costs 
for different types of construction, which insurance companies 
can use to determine appropriate rates. This organization also 
recommends specific credits be given for compliance with 
certain building codes or the use of materials such as window 
shutters.
    There are also other organizations such as the Institute 
for Highway Safety and the Institute for Business and Home 
Safety that provide research for the insurance industry; 
however, these organizations have no budget for research for 
wind hazard mitigation to the best of my knowledge.
    I do believe there are several universities that conduct 
research on wind damage and the ability of certain products to 
withstand damage from wind; however, I am not aware of any 
efforts by individual insurance companies or the industry to 
build on these efforts.
    While I do not have access to specific loss amounts for 
wind damage, I can provide some insight into the amount of 
damage caused by hurricanes. Average annual losses from 
hurricanes in the United States are between $5 and $20 billion, 
using current property valuations and 2000 census data. This 
spread is due to the variance in modeling projections and 
building performance. In the last half century, Florida and 
Texas suffered the largest hurricane losses in the United 
States. Based on adjusted losses, 38 percent of the direct 
insured property losses caused by catastrophic hurricanes 
occurred in Florida, with another 11 percent in Texas. The most 
expensive windstorm in history, Hurricane Andrew, produced 
insured losses of $15.5 billion or approximately $20 billion in 
current dollars.
    One aspect not often considered is the economic impact of 
windstorms on the community. A report commissioned by the 
Office of Florida Governor Lawton Chiles summed up the damage 
from Hurricane Andrew as follows: 28,066 homes destroyed, 
107,380 homes damaged, 82,000 businesses destroyed or damaged, 
7,800 businesses closed as of September, 1992, and 86,000 
people out of work as of September, 1992.
    The immediate financial and market consequences of a major 
catastrophe are swift, severe, and long lasting. Small insurers 
may become insolvent and the remaining insurers will most 
likely have limited resources to write additional risks or the 
market for residential and commercial properties may be non-
existent. Catastrophe reinsurance process will increase and 
availability will be limited for some time. Business owners are 
often forced out of business with the additional loss of jobs 
to their employees and the loss of revenue on the economy.
    Due to a lack of real data demonstrating that mitigation is 
truly effective, insurance companies have been reluctant to 
provide insurance incentives for mitigation; however, changes 
are beginning to occur with Florida and Texas mandating 
incentives for certain mitigation techniques and/or compliance 
with stringent building codes found in catastrophe-prone areas. 
The Texas Wind Storm Insurance Association provides discounts 
for specific features in homes in designated catastrophe-prone 
areas.
    New homes will fare better in windstorms, although much 
more still needs to be done. The new International Residential 
Building Code has better loads and a wind-borne debris region, 
but lacks many basics. Cost effective measures for new homes 
should include secondary water resistance, improved roof 
coverings, improved design loads for two and three-story 
buildings, treatment of soffits in design and wind borne 
debris. Failure of states to adopt stringent building codes, 
such as the IRC, as mandatory for all areas of the state will 
continue to result in wind damage that could have been less 
severe or possibly avoided all together.
    Retrofitting is rare except in those cases where a loss has 
already occurred and the home is being repaired and new 
building codes have been adopted. Insurance incentives, public 
education, and statewide stringent building codes can help 
remedy this situation.
    Barriers to widespread implementation of existing 
mitigation techniques include lack of education, failure of 
insurance companies to provide sufficient financial incentives, 
knowledgeable construction personnel, cost to the homeowner, 
and again, lack of mandatory building codes. Changes through 
zoning restrictions or building codes are often opposed by 
developers, homeowners, real estate, and even local government 
who are concerned with the increased cost of construction.
    Most coastline states are still susceptible to significant 
devastation, including both property and non-property losses 
from a major windstorm. Unless state-wide risk reduction 
strategies, including stringent building codes and building 
moratoriums in those areas most vulnerable to wind damage 
occur, wind damage mitigation will not succeed in protecting 
from loss of life and property.
    Again, thank you for the opportunity to be here. I do 
appreciate this.
    [The prepared statement of Mr. Shofner follows:]

                  Prepared Statement of Bryan Shofner

    Mr. Chairman, Members, my name is Bryan Shofner and I am the 
President of Shofner A& Associates Insurance Agency, Inc. I am an 
independent insurance agent selling primarily property and casualty 
insurance for both residential and commercial clients. As an 
independent insurance agent I represent several insurance companies and 
place my customer's business with the company that best satisfies their 
needs. I have been asked to testify on the status of wind damage 
mitigation research as well as what steps the insurance industry has 
undertaken to reduce damage from wind.
    Insurance companies have significant information on risk factors as 
well as loss severity and loss frequency by a given area of the 
country, state, county or city. Companies can determine the likelihood 
of a given loss which is used in the calculation of the insurance 
premium that is charged to a specific policyholder or applicant for 
insurance. This statistical information is proprietary and intended for 
the sole use of that particular company to aid in the rate-making 
process.
    On the other hand, insurance companies have very little information 
on wind damage mitigation techniques and do very little research on 
wind damage reduction. Insurance companies do not have the engineering 
staff to accomplish this research. The offshore re-insurance industry 
does some minor research but this information is also proprietary.
    There are other organizations that provide statistical and 
actuarial information such as the Insurance Services Office. They 
provide this information to those companies who do not have their own 
data. ISO publishes information about loss costs for different types of 
construction which insurance companies can use to determine appropriate 
rates. This organization also recommends specific credits be given for 
compliance with certain building codes or the use of materials such as 
window shutters.
    There are also organizations such as the Institute for Highway 
Safety and the Institute for Business and Home Safety that provide 
research for the insurance industry. However, these organizations have 
no budget for research for wind hazard mitigation; to the best of my 
knowledge.
    I do believe there are several Universities that conduct research 
on wind damage the ability of certain products to withstand damage from 
wind. However, I am not aware of any efforts by individual insurance 
companies or the industry to build on these efforts.
    While I do no have access to specific loss amounts for wind damage; 
I can provide some insight into the amount of damage caused by 
hurricanes. Average annual losses from hurricanes in the US are between 
$5-$20 billion dollars using current property valuations and 2000 
census data. The spread is due to the variance in modeling projections 
and building performance. In the last half century, Florida and Texas 
suffered the largest hurricane losses in the United States. Based on 
adjusted losses, 38 percent of the direct insured property losses 
caused by catastrophic hurricanes occurred in Florida with another 11 
percent in Texas. The most expensive windstorm in history, Hurricane 
Andrew, produced insured losses of $15.5 billion or approximately $20 
billion in current dollars.
    One aspect not often considered is the economic impact of 
windstorms on the community. A report commissions by the office of 
Florida Governor Lawton Chiles summed up the damage from hurricane 
Andrew as follows:

        <bullet>  28,066 homes destroyed;

        <bullet>  107,380 homes damaged;

        <bullet>  82,000 businesses destroyed or damaged;

        <bullet>  7,800 business closed as of September 1992; and

        <bullet>  86,000 people out of work as of September 1992.

    The immediate financial and market consequences of a major 
catastrophe is swift, severe and long lasting. Small insurers may 
become insolvent and the remaining insurers will most likely have 
limited resources to write additional risks or the market for 
residential and commercial properties may be non-existent. Catastrophe 
re-insurance prices will increase and availability will be limited for 
some time. Business owners are often forced out of business with the 
additional loss of jobs to their employees and the loss of revenue on 
the local economy.
    Due to a lack of real data demonstrating that mitigation is truly 
effective, insurance companies have been reluctant to provide insurance 
incentives for mitigation. However, changes are beginning to occur with 
Florida and Texas mandating incentives for certain mitigation 
techniques and or compliance with stringent building codes found in 
catastrophe-prone areas. The Texas Windstorm Insurance Association 
provides discounts for specific features in homes in designated 
catastrophe-prone areas.
    New homes will fare better in windstorms although much more still 
needs to be done. The new International Residential Building Code has 
better loads and a wind-borne debris region but lacks many basics. Cost 
effective measures for new homes should include secondary water 
resistance, improved roof coverings, improved design loads for two and 
three-story buildings, treatment of soffits in design and wind borne 
debris. Failure of states to adopt stringent building codes (such as 
the IRC) as mandatory for all areas of the state will continue to 
result in wind damage that could have been less severe or possibly 
avoided altogether.
    Retrofitting is rare, except in those cases where a loss has 
already occurred and the home is being repaired and new building codes 
have been adopted. Insurance incentives, public education and state-
wide stringent building codes can help remedy this situation.
    Barriers to widespread implementation of existing mitigation 
techniques include lack of education, failure of insurance companies to 
provide sufficient financial incentives, knowledgeable construction 
personnel, cost to the homeowner and again, lack of mandatory building 
codes. Changes through zoning restrictions or building codes are often 
opposed by developers, homeowners, real estate and even local 
government who are concerned with the increased cost of construction.
    Most coast-line states are still susceptible to significant 
devastation including both property and non-property losses from a 
major windstorm. Unless state-wide risk-reduction strategies including 
stringent building codes and building moratoriums in those areas most 
vulnerable to wind damage occur, wind damage mitigation will not 
succeed in protecting from loss of life and property.
    This concludes my remarks and I would be happy to answer any 
questions that you may have.

                     Biography for Bryan L. Shofner

PERSONAL HISTORY:

Birth date: Born March 17, 1965 in Lubbock, Texas

Marital Status: Married (13 years)

Family: Wife, Diane, with two sons, Taylor (Age 12) and Landon (Age 6)

EDUCATION:

License:
Currently hold Texas Local Recording Agents and Group I Licenses

Currently hold Non-Resident Licenses in New Mexico, Colorado and Kansas
Designations:
Currently pursuing Certified Insurance Counselors (CIC) and Accredited 
        Risk

Manager (ARM) designations

Achieved Commercial Lines ACSR Designation in 1993
College:
Baylor University--Texas Local Recording Agents (Ninety Classroom 
        Hours)

Texas Tech University--1983-1986 (Majored Psychology)
High School:
Coronado High School (Graduated 1983)

WORK EXPERIENCE:

Firm: Shofner & Associates Insurance Agency, Inc., 5106 Slide Road, 
        Lubbock, Texas 79414

Position: President

Duties: Officer and Manager

Length of Time: June 1986 to Present

AWARDS:

Texas 2001 Young Agent of The Year--Presented by the Independent 
        Insurance Agents of Texas and Travelers Property & Casualty--
        2001 IIAT State Convention (San Antonio, Texas)
Recognized as a Leader in the Industry--2001 IIAT State Convention (San 
        Antonio, Texas)

PROFESSIONAL ACTIVITIES:

        <bullet>  Currently serving on the Board of Directors for the 
        Independent Insurance Agents of Texas, 2002-2005

        <bullet>  Served on the Texas IIAT Legislative Committee, 2000-
        2001

        <bullet>  Texas State Chairman for the Independent Insurance 
        Agents Junior Golf Classic Committee, 1999-2001

        <bullet>  Ex-Officio Board Member for the Lubbock Association 
        of Insurance Agents, 1998-1999

        <bullet>  President of the Lubbock Association of Insurance 
        Agents, 1997-1998

        <bullet>  President-Elect of the Lubbock Association of 
        Insurance Agents, 1996-1997

        <bullet>  Vice President of the Lubbock Association of 
        Insurance Agents, 1995-1996

        <bullet>  Board Member of Lubbock Association of Insurance 
        Agents, 1994-1999

        <bullet>  Currently serving as the President-Elect Community 
        Health Center of Lubbock

        <bullet>  Treasurer Community Health Center of Lubbock, 1997-
        2000

        <bullet>  Board Member of Community Health Center of Lubbock, 
        1996 to present

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                               Discussion

    Mr. Neugebauer. Thank you, Mr. Shofner. We will now have a 
question and answer period and I will start off with Dr. 
Kiesling.
    Texas Tech is obviously a leader in windstorm hazard 
mitigation research and development, from providing information 
to the public on how to stay safe during a tornado to 
developing an in-house residence, safe houses. Texas Tech's 
contribution in this field has been invaluable. What processes 
are in place at Texas Tech to transfer the technology knowledge 
developed at the Wind Science and Engineering Research Center 
to other research institutions, government industries, and the 
public?
    Mr. Kiesling. A multitude of things would be in line with 
that. First of all, we produce a significant number of 
publications, as you would expect. Those are available on our 
web site and distributed. A lot of them are presented at 
meetings. We have an information, an outreach program. We 
answer an enormous number of telephone inquiries from all 
segments of the industries--the builders, the producers, the 
public. We regularly teach short courses to, for example, the 
American Society of Civil Engineers. We had a three-day short 
course in this building last week with design professionals. 
There are various outreach programs, a lot of educational 
programs with K through 12, though our ability to do that 
depends a lot upon the personnel we have available to do that. 
So there are a number of mechanisms in place.
    Mr. Neugebauer. Okay. Thank you. This is kind of a question 
for all of you. In reading your testimony, you know, one thing 
that became evident was that a lot of the research, or research 
dollars that you perceive being allocated by the Federal 
Government is going more to the weather, study of weather 
patterns, and certainly that is an important part of that, but 
the mitigation area probably is getting some of the least 
amount of funding. And so your feelings as to how, if you are 
allocating from the study of the atmosphere, the mitigation, 
and then the implementation, what is your feeling on how that 
pie should be divided?
    Dr. Meade.
    Dr. Meade. You are correct that most of the money is going 
toward weather forecasting, and studies are a part of that. 
It's not clear so much that it is a pie to be divided in the 
sense that you could take the same amounts of money that you're 
ordinarily giving to hazard mitigation simply because it may 
cost more money to do that sort of research than it does--for 
example, it requires satellites and all kinds of expensive 
instrumentation. So, it's not clear that you can make a dollar 
for dollar comparison. The point being, if loss reduction is 
your goal, loss reduction being measured in terms of dollars, 
the only way you are really going to do that is if you focus on 
research that sort of feeds into programs such as those here at 
Texas Tech or other engineering programs. And weather 
forecasting programs are largely focused on helping people make 
very short decisions, like whether to evacuate before a tornado 
or before a hurricane. The data that is collected in weather 
forecasting programs is generally not used in an engineering 
context. At least, that is not why it is being collected in the 
first place. So a lot, I think, you could certainly increase 
the amount of money that is going toward the engineering side 
and largely because the ratios are so imbalanced right now it 
would be awfully hard to make a contribution error. I think it 
would make a very large contribution to loss reduction.
    Mr. Neugebauer. Dr. Bienkiewicz.
    Dr. Bienkiewicz. Well, the level of support of engineering 
activities, as stated by witnesses here, is low as compared to 
the level of funding of phenomenon itself. I would like to say 
that technologies which could be incorporated in such a way 
that the costs of providing more information on phenomenon for 
direct application of engineers would not be prohibited. And in 
my testimony I am quoting an example of the project which 
states that being developed by Engineering Research Center 
founded by National Science Foundation and people are thinking 
about placing a small-site radar system, and the place 
specified for this project will be in Oklahoma. So there are 
opportunities, and that is what I tried to state in my 
testimony, of high technology dropping costs of doing science 
and providing information for engineering complications. So 
that might be one of the options which we should actively 
pursue.
    Mr. Neugebauer. My time has expired. The gentleman from 
Kansas.
    Mr. Moore. Thank you, Mr. Chairman. First question to Dr. 
Kiesling. You talked about safe rooms and I guess my question 
to you, sir, is can you give us an estimate, percentage-wise or 
dollar amount, what it might cost to build a safe room into a 
home to protect the occupants from death.
    Dr. Kiesling. Yes. I would say that the low end of a 
quality shelter, one that is really dependable, would be 
approximately $3,000. They go up from there and it depends a 
lot on whether you are talking about new construction or 
retrofit because in a retrofit costs vary because of 
accessibility problems and so forth, but I would say from 
$3,000 to $6,000 is a reasonable estimate of the range.
    Mr. Moore. And in terms of retrofit or new construction, 
what kind of techniques or technologies would be incorporated 
to protect people in a safe room.
    Dr. Kiesling. In the case of new construction, of course, 
the ideal situation is to simply choose a small room such as a 
bathroom, a closet, a pantry, and harden and stiffen that to 
provide the level of protection desired.
    Those are designed so that they would provide protection 
even if the house is totally destroyed.
    In a retrofit situation there are concepts where you could 
improve the same room. The critical thing is to have a 
foundation to which to anchor, or a slab. But an economical way 
in a retrofit situation is simply to put a shelter, build a 
shelter down in the garage, a steel box if you will, and there 
are many products on the market now available for that. And so 
that is probably the low end of the cost range as well because 
you can buy a manufactured shelter and simply anchor it and it 
will provide good protection.
    I would also distinguish between the in-residence shelter. 
That is one that is accessible without going outdoors. Many 
shelters are being built as say cellars or dugouts in the back 
yard. Certainly they offer good protection if you are in them, 
but you need to use them in a different way. In other words, 
you need to access those when there is a weather warning 
because if you wait until the storm is in progress, then you 
would probably take greater risk to get to it than just staying 
indoors.
    Mr. Moore. So early alert makes a big difference.
    Dr. Kiesling. It does in that type of shelter, yes. Of 
course, in the case of community shelters, that is particularly 
true because one has to have sufficient notice to get to the 
shelter.
    Mr. Moore. Dr. Kiesling, thank you, sir. Dr. Meade, you 
indicated--and I wrote this down and this is not an exact 
quote, but correct me if I am wrong, but I think it is close to 
what you said--injury rate for manufactured housing buildings 
is 20 times higher.
    Dr. Meade. These are data from scientists at NOAA, the 
National Oceanographic and Atmospheric Administration, and in 
looking at injury and death rates from tornadoes specifically 
and looking at the history of the death rates from tornadoes 
over the past century or so, in recent years they estimate that 
the death rate for manufactured homes is 20 times higher than 
that from conventional homes, yes. I can send you a detailed 
reference of that, if you would like, sir.
    Mr. Moore. Thank you. Mr. Shofner, in your testimony you 
talked about hurricanes and not as much about tornadoes and I 
think you indicated that you didn't have as much data; is that 
correct?
    Mr. Shofner. Yes.
    Mr. Moore. Does your industry generally view these two 
types of storms differently? If I am in Lubbock, Texas, or 
Kansas City can I purchase coverage for tornado damage without 
purchasing coverage for hurricanes?
    Mr. Shofner. Well, the hurricanes, normally that coverage 
is normally directed toward property that is located in tier 
one and tier two counties. That is what we refer to as 
coastline and just inside the coastline.
    Mr. Moore. Okay. So I guess the answer is yes.
    Mr. Shofner. Yes.
    Mr. Moore. All right. If the Federal Government were to 
fund a serious program for wind hazard research and reduction 
or mitigation of damages, do you believe insurance companies 
would really use that information----
    Mr. Shofner. I believe they would.
    Mr. Moore [continuing]. In setting rates?
    Mr. Shofner. Yes, I believe they would. One of the things 
that you would have to keep in mind is obviously--and I have 
discussed this, touched on this--is that the cost of 
construction to meet these qualifications, obviously from an 
insurance standpoint, we have to insure reconstruction costs. 
So naturally as that cost of construction increases, the 
premiums increase. But your overall incentive, I think, is 
underlying in that it makes the risk actually more marketable 
to the insurance companies for their most aggressive rates that 
they have.
    Mr. Moore. Thank you. Mr. Chairman, I have one more 
question. My time is up, but can I ask one more question.
    Mr. Neugebauer. Sure.
    Mr. Moore. I think one of you mentioned--I don't know who 
it was and please, whoever knows this information, if you do, 
jump in--that there was a lot more research money devoted 
toward hurricanes than tornadoes--I'm sorry, earthquakes than 
tornadoes. Did somebody talk about that or did I read that in 
some of your materials?
    Dr. Meade. Actually, in the RAND study we pointed out that 
roughly 85 percent of all the funding went toward weather-
related hazards and the second part was kind of gray. It was 
educational, and that's an order of magnitude less than the 
weather-related hazards and so the difference, of course, 
between earthquakes and weather is that there is no earthquake 
prediction going on, but there is a lot of weather forecasting 
work going on.
    Mr. Moore. Okay. Thank you, Mr. Chairman.
    Mr. Neugebauer. Prior to lunch today we had the opportunity 
to go out and tour a reinforced home under construction and 
then we visited one that was completed and during that process 
the builder of that home was at the site and it is about an 
1,100 square foot home and the perimeter walls are foam forms 
with concrete poured in the center of those foam blocks. In 
this facility it also had an in-home closet for a tornado 
shelter. The approximate cost of that was about $9,000 over 
conventional construction and one of the questions that we 
began to talk about during that process was, you know, what 
kind of recognition is there in the insurance industry for the 
fact that this house is much more fortified, wind resistant, 
and storm resistant than the house sitting next to it? And one 
of the ladies there that administers the program at the City 
Community Development said that they had to shop around and 
could not really get a quote that would give any recognition 
for that until after they had made some calls to another part 
of the country where they had been doing some homes like that 
and were able to identify a company that would write that. 
Because the important part of that, when you take that $9,000 
and amortize it in today's rates, that is probably a four or 
five--a $50 or $60 increase in the payment. Maybe not that much 
at these rates, but one of the things that she said when they 
finally did get an insurance quote, that it was about 50 
percent of a conventional quote for the homes, conventional 
construction.
    I think one of the things that is the secret to us really 
getting some meaningful research and development is getting the 
recognition in the market place that this kind of mitigation 
should be taking place and that there is a reward for the 
homeowner that says, you know, I am going to buy the more 
fortified home and the way I am going to pay for part of that--
maybe it doesn't amortize all of it, but possibly it could, 
depending on the interest rates and so forth. Mr. Shofner, what 
do you see as far as recognition of, for example, some of the 
coastal areas and bringing into some mitigation efforts in the 
insurance industry rewarding that?
    Mr. Shofner. Well, I think one of the things that would 
have to be done initially is that there would have to be some 
education put in place to, obviously, consumers, but also the 
companies. Just recently most everyone in the State of Texas is 
aware of the fact that they gave--they have allowed for a 
credit for different types of hail resistant roofs.
    They classify a specific roof based on what you would place 
and they will give a credit based on that roof if they have 
filed with the state to offer that credit. That's the other 
thing why a tie to educating the companies, is that the more 
information that they have that is being done to mitigate these 
types of losses, then they can go in and make an effort to make 
a filing with the Department of Insurance in the state that 
they are located in to offer an appropriate credit for what 
they are doing.
    Mr. Neugebauer. And one of the other things, I think in 
testimony, and maybe it was yours or somebody else's, we were 
talking about who's doing research in this and it looks like 
most of the research is falling upon the Federal Government 
right now. The insurance industry within itself is really not 
doing much research and yet we also hear that they're reluctant 
to share some of their loss data with researchers that are 
actually doing that. What kinds of things do you think we can 
do to bring together--I am a great believer in public/private 
partnerships because my experience is when things are just in 
the private sector, I mean just in the public sector without 
private sector participation, they are slower to get off the 
ground because ultimately the goal here is some 
commercialization of the research that is going on here. How 
can we foster that?
    Mr. Shofner. That is a tough question. I think when we have 
the answer to that, then we will have achieved a lot in 
overcoming the issues that we are talking about here today.
    I could probably--Do you mind if I defer to a gentlemen to 
ask a quick question.
    Mr. Neugebauer. Sure.
    Mr. Shofner. I apologize.
    Thank you very much for allowing me to do that. One thing 
we could do is determine, show the company, and like I said 
this goes back to the education of the companies. If we can 
show them how they can save in a specific area by giving these 
credits over the long haul, I feel like that they would become 
more aggressive in their approach to offering these credits, if 
they see what other companies are able to do and how much money 
they are actually able to save as these storms occur.
    Mr. Moore. Okay. Thank you, Mr. Chairman.
    Maybe it was you, Dr. Bienkiewicz--if it was somebody else, 
forgive me--but you testified or I read in the materials that a 
significant portion of the loss, the economic loss, will come 
from interruptions in business operations. Did you touch on 
that in some of your materials?
    Dr. Bienkiewicz. Yes.
    Mr. Moore. What can we do, if anything, to guard against 
that, protect against that economic loss from interruption to 
business?
    Dr. Bienkiewicz. There are several elements which one 
should refer to. First of all, mitigation measures before it 
even happens so that there are no interruptions in business. 
One of the examples which we are facing, that was approached by 
the state agencies in one of the western states, is that 
frequently transportation is affected by high wind effects and 
then the transfer of goods from West to East Coast is really 
suffering because of costs. So there are regional issues which 
state agencies and businesses are facing and I suppose if the 
region beyond hurricane and tornado alleys and hurricane zones 
would be identified if we want true, true mitigation of a lot 
of our problems, that would significantly minimize professional 
exceptions to business and examples of application.
    Mr. Moore. Thank you, sir. Dr. Kiesling and anybody else 
who wants to join, if you have something to offer here, I would 
like to hear your thoughts as well. We talked, one of my 
earlier questions you answered about safe homes for private 
homes. What about people, low income folks who live in our 
communities? What do we do to protect low income people who 
can't afford the $3,000 to $6,000 for either new construction 
or retrofitting? How do we protect those folks?
    Dr. Kiesling. This is a real challenge and unfortunately 
some of them live in the most vulnerable homes so that the 
community shelter offers one solution. And we are seeing, 
particularly in your state, more and more community shelters 
being built in schools and in manufactured housing parks. I 
think Wichita probably has one of the only ordinances that 
requires the construction of community shelters in manufactured 
housing parks and many of those low income people live there. 
There is no simple solution I know of to that. Though I would 
also remark that the incentive grants have a tremendous 
stimulus to shelter construction and certainly anyone can 
offer, can get the protection fairly economically. It may not 
be the most aesthetic thing, but after the Oklahoma City 
tornadoes, for example, and the incentive grants there, many 
people just bought concrete boxes to sit in the back yard. They 
are not optimum, they're not ideal, but many people were in 
there when the next tornado came through and they performed 
okay. So there are more economical shelters available and 
furthermore the small incentive grants can make a great deal of 
difference in making them available.
    Mr. Moore. Incentive grants from the government?
    Dr. Kiesling. Well, of course, most of the stimulus has 
come to date under the Stafford Act after a disaster when a 
percentage of the relief and recovery funds go into mitigation 
and the states have chosen to make incentive grants available. 
In some states, Arkansas for example, the state annually 
appropriates money for shelter incentive grants and they make 
small grants, a thousand dollars, but they always have more 
takers than--so they might come from anywhere, but certainly I 
think that is an area in which the states could be more active.
    Mr. Moore. You mentioned construction of these safe homes 
or some sort of community shelter in some of the manufactured 
home places. You mentioned the Wichita thing.
    Is that happening in other places around the country?
    Dr. Kiesling. Not to the same extent that I know of. I 
would also mention there that I understand that a bill was just 
signed into law in December.
    Mr. Moore. Okay.
    Dr. Kiesling. That HUD will provide monies for shelter 
incentive grants. It's not a large amount of money, but it is a 
beginning and that can be very significant and I think they are 
aiming at the low income families.
    Mr. Moore. Thank you, Dr. Kiesling. May I have one more 
question, Mr. Chairman.
    Mr. Neugebauer. Yes, sir. Go ahead.
    Mr. Moore. Obviously the last two years we thought a whole 
lot in this country about homeland security. How does that tie 
in or can that tie in with some of these safe homes and other 
things? Is there a way to make dual use of that? Anybody?
    Dr. Kiesling. Well, we think so; that is, the safe room, 
for example, can readily be retrofitted to protect against 
chemical and biological hazards, relatively inexpensively, I 
think. I see some potential for that. They are also, of course, 
much more resistant to blast, but I don't see that as much of 
an advantage in our residence. I'm not likely to have a warning 
when a blast will come. So I think there is some cross-
advantages there that can be taken advantage of.
    Mr. Moore. Thank you, Mr. Chairman.
    Mr. Neugebauer. Yes, sir. One of the things that was, I 
think, a common thread in your recommendations as each one of 
you talked about where we go from here and I think one of those 
was, you know, a more organized structure for the research and 
development that is going on right now. We had a little bit of 
discussion back at our lunch table today and that really kind 
of maybe goes to the point of, if we move forward from here 
with some meaningful research dollars, you know, what is the 
best oversight agency for this type of research? Dr. Meade.
    Dr. Meade. Well, that is a difficult question because you 
have--you generally have agencies that are doing research right 
now and that would primarily be the National Science Foundation 
and NIST, the National Institute of Standards and Technology. 
Does that translate into the best agency for the oversight? I'm 
not sure. And so, you know, going to the NEHRP problem, you 
have FEMA as the oversight agency, but of course there are no 
R&D dollars whatsoever within FEMA. Maybe a similar structure 
would be appropriate, but a lot of this gets into goals that 
you hope to accomplish in this research program. In other 
words--and you talked yourself about what do you want the 
outcomes to be in five to 10 years. So sometimes gaining the 
outcomes might require a different agency to carry out the 
oversight function as opposed to those who are executing them, 
the actual R&D mission. A safe bet is that there will probably 
be more than one agency involved and so the question is how do 
you coordinate it.
    Mr. Neugebauer. Dr. Bienkiewicz.
    Dr. Bienkiewicz. It is my understanding that there is 
already discussion on the authorization for NEHRP, recent 
discussion in the House, but the need to put out with the NEHRP 
was moved from FEMA to NIST and as far as I can understand from 
discussion, a different region of FEMA now being under Homeland 
Security Department, but also from my perspective, NIST 
probably is on the side of implementation and codes and 
standardization so, of course, it seems to be an appropriate 
place, but it is tough for me to make.
    Mr. Neugebauer. One of the things I think--and I think you 
mentioned two agencies. One of the things that, and this is a 
personal opinion, is that when we get multiple agencies 
overseeing, sometimes when we just have one agency overseeing 
things it is onerous, but if you really want something to get 
real onerous, you assign multiple agencies.
    Mr. Moore. Just your personal opinion? A lot of people 
share that.
    Mr. Neugebauer. And the other thing is too, if we start 
getting two or three different, you know, groups in and they 
may have different committee oversight and then first thing you 
know, we can't trace where the money is going, there is no 
accountability, and so it is my personal opinion that we 
identify an agency and task them with a broad task of, you 
know, talking about, you know, from kind of A to Z, from the 
research to the implementation and actually the 
commercialization of that. And I would task that agency that we 
have to have the private sector at different levels. And I know 
that some of the research that Texas Tech has done, I think the 
National Building Institute, the homebuilders at the national 
level, getting some money to or toward some granting 
opportunities, are working in connection with that.
    I think you have to bring all of those people to the table 
if you are going to get an outcome that will be accepted in the 
market place. Ernie, you want to reflect on that?
    Dr. Kiesling. I was simply going to suggest, in answer to 
your earlier question, that to me a critical element is the 
language of the bill creating this thing so that the agency 
administering it has the ability to respond to the broad 
spectrum of research that needs to be done and is not limited 
by their mission. My sense would be that you can take care of a 
lot of that in drafting the language of the bill itself. I've 
read the House Bill 2020 and I think it does cover a lot of 
areas and would enable whatever agency to put it, to sponsor 
the kind of research that needs to be done.
    Mr. Neugebauer. Anybody else.
    Dr. Bienkiewicz. I think that some of these issues were 
addressed in Bill 2020 and cross-integration of the activities 
and the agencies.
    Mr. Moore. Kind of getting down to nuts and bolts for just 
a minute. We've talked covering a number of different areas 
here, but I guess I wanted to ask, just in terms of what 
people, individual homeowners might do, either in retrofitting 
or home builders of new construction, what techniques are 
available to build stronger homes that will withstand wind 
damage and is it cost effective? Are people just spending 
unnecessarily if they try to put a few extra dollars into 
strengthening roof systems, for example, or walls? Can somebody 
talk about that? Is it going to keep claims from being made, is 
it going to be recognized by the insurance industry as we might 
not have to pay as much money out in a situation like this and 
therefore rates are going to go down? Dr. Kiesling.
    Dr. Kiesling. I think that is an appropriate challenge for 
the research community and then we can say that there are some 
measures, more if you've got connections, stronger connections 
of roof to wall, wall to floor.
    Mr. Moore. Connections in what respect? How would that 
happen?
    Dr. Kiesling. Well, there are so-called hurricane clips 
that you can use and they would work well in any kind of wind 
and those are so economical and so easily done that there is 
little question, I think, about the long-term economic benefit 
of that.
    Mr. Moore. If they are so economical, why wouldn't people 
in wind territories now be using them?
    Dr. Kiesling. They do use them pretty extensively in 
hurricanes because there the public is convinced of the high 
probability of occurrence during the lifetime of the house.
    In the tornado regions, again they are not that convinced 
of that, but I think it is the research community's challenge 
and obligation to provide reliable data and it takes a long 
time to accumulate that because you have to have an event 
before you can assess the effectiveness of it, basically, or 
verify the effectiveness of it. But I think we need to get 
reliable information to the homeowner and to the insurance 
companies as to what is the benefit and that is a big 
challenge. And it depends obviously upon the locale as well, 
the probability of the occurrence of a wind event. So if we go 
on a scale, we can readily say that some things we know are now 
effective, but other measures we would have to do some research 
to be able to say what is the effectiveness.
    Mr. Moore. Anybody else have a comment on this?
    Mr. Shofner. I would agree with Dr. Kiesling. I mean, I 
think it would just take a lot of research efforts to be able 
to provide information to the insurance companies and put that 
information in front of their actuarials where they can 
properly look at it and see what the actual claims dollars that 
are going out to those loss site areas for homes that maybe 
aren't retrofitted or constructed to that quality as compared 
to the ones that are. And then over the time period, hopefully 
they would be able to see a necessity and see the advantages of 
being able to offer those credits.
    Mr. Moore. Dr. Bienkiewicz.
    Dr. Bienkiewicz. Yes, I would like to extend this 
discussion to beyond single-home dwellings and into engineered 
buildings. If we need to begin in hurricane regions, they have 
none of the systems which allow you to reduce net load 
impacting components of buildings. When you make a single-
family move, you have reduction and you can design a retrofit 
roof which will perform well and will meet current 
specifications for a region. So the need is urgent and I think 
we need to invest more money to improving them.
    Mr. Moore. Dr. Meade, anything?
    Dr. Meade. I don't think I have anything.
    Mr. Moore. I guess not to push, but to push a little bit, 
we have been having hurricanes and tornadoes for a few years 
around this world and we have been, people have suffered a lot 
of losses, including loss of property and loss of life. Is 
there any way to expedite this process? How do we hurry this up 
so we can save more dollars and lives in the future. Anybody? 
Yes, sir, Dr. Meade.
    Dr. Meade. I offer the opinion that if you can make it so 
that people can benefit more, even though the hurricanes and 
tornadoes do not occur every year, as Dr. Kiesling pointed out 
that the working probability is that a hurricane will hit a 
house once in its lifetime, but even so, that is a difficult 
catalyst for most homeowners and so you really need to see it 
reflected in a month to month or year to year basis in their 
insurance premiums so that it is in their economic interest 
to----
    Mr. Moore. So it comes down to money, doesn't it?
    Dr. Meade. It totally comes down to money.
    Mr. Moore. Well, we don't have that problem in Congress, 
I'll tell you.
    Mr. Neugebauer. I think to continue the dialogue we have 
been having, I think where I am personally, coming from the 
private sector for a number of years before getting to Congress 
is, you know, you have got to have an entrance strategy and 
then what we call an exit strategy. I think what the 
Congressman was talking about, what is our exit strategy here, 
when do we get to the point where we have some stuff that is 
cost effective that we can implement and we can get that 
information out to the private sector so they can start 
building and implementing this on a broader basis? I know we 
are building homes today in Lubbock with the in-house shelter 
that Dr. Kiesling has been working on, but I don't know how 
much retrofitting we are actually doing and probably the 
retrofit is probably the bigger piece of the pie. Certainly 
from this point forward, the new construction, it is easy to do 
that, but what kind of research are you doing on mitigation 
structures that, I don't want to oversimplify it, but you are 
almost going to have to, to me, to get it where you can go down 
to Lowe's or one of the building supply places and get a kit 
that that homeowner can take home and install in their home or 
get installed on a relatively inexpensive and quick basis 
without this major, you know, reorganization of their home.
    Dr. Meade. Your comment is correct that it would be a lot 
easier if you could go down to Lowe's and buy something off the 
shelf, ideally something that would come, for example, from the 
recent program that you are talking about. But it does come 
down to dollars and cents. For example, you can go down to 
Lowe's right now and you can buy insulation, which you will put 
in your house and which will decrease your energy bill. People 
will do that because they can see that it does decrease their 
energy bill. They don't go and buy insulation as part of being 
a good citizen. So the idea is there needs to be some mechanism 
in place for them to go down and make this investment in wind 
mitigation technology that it will have some sort of payback to 
them and payback has to hopefully occur before the next tornado 
or before the next hurricane because if you are waiting for 
them, if they are making a bet, so to speak, that a hurricane 
is going to occur, a tornado is going to occur next year, 
that's--not too many people are going to purchase it, no.
    Mr. Neugebauer. Go ahead and then, Ernie, we will to go 
you.
    Dr. Kiesling. I think another difficulty there is that how 
can that benefit come without say a reduction in insurance 
premiums and how can the insurance company assess the value of 
that investment or improvement made? So that is a difficult 
thing to do and I guess education is the answer we would give 
to nearly all questions. But as you mentioned, it comes down to 
economics in the end and it may be unrealistic to expect the 
scenario that you just presented.
    Mr. Neugebauer. Mr. Shofner.
    Mr. Shofner. I also believe if there were stricter building 
codes that were mandated, I think that insurance companies 
would see that information as a positive step and I think they 
would move quicker from that standpoint to react to what people 
are doing proactively to try to limit their losses and I think 
in return they would go out and try to see what they could do 
from an incentive on the other side. I think it would just be a 
quicker step.
    Mr. Neugebauer. Well, I know that the insurance company is 
recognizing, for example, I think if you have a certain kind of 
lock, dead bolt locks, and if you've got an alarm system in 
your home, now we've gone to roof structures, I mean, so it is 
not, we are not setting any precedent here.
    But what I heard you saying earlier is that there is really 
not tangible evidence, or the perception in the industry is 
that there is not tangible evidence, that insuring house 541888 
and 542088 and one of them has, you know, a different 
structural, a more rigid structure, that it is less of an 
insurance risk than the one next door that is conventional, 
that there is just not recognition in the marketplace.
    Mr. Shofner. Currently right now there is not, unless it is 
a large difference in risk. When you are talking about two 
homes that are right next to each other, in my opinion, no, 
there's not, but if you have a home that is inside the city 
limits from versus one that is just outside the city limits, 
that could create a difference there because----
    Dr. Meade. Well, maybe known to several parts of the 
insurance industry. It is certainly not known to homeowners, 
but it is known, for example, that if you go out and buy a red 
sports car, you are going to pay more insurance than you are if 
you are going to go out and just buy a standard sedan of some 
sort. Or you know that if you have young children who are 
driving in your household, your insurance rates go up.
    Mr. Neugebauer. I have experienced that, both the red 
sports car and the children.
    Dr. Bienkiewicz, did you want to add anything to that?
    Dr. Bienkiewicz. I would like to make a comment about a 
national program which I developed which would help out 
industry as well as practicing engineers. And I brought with 
me, it is an older version of the NEHRP provisions. This is one 
volume. There is another volume coming and it has been revised 
several times. It is a tangible product coming from that 
program. It provides bolts and nuts related to design and 
details and so on and so forth. Now when we talk to practicing 
engineers, there are some codes, and there are some others, so 
we can provide the toolboxes. This is one of the examples.
    Mr. Neugebauer. Would you like to enter that as part of 
your testimony?
    Dr. Bienkiewicz. Yes.
    [Note: Information referred to is ``NEHRP Recommended 
Provisions for Seismic Regulations for New Buildings and Other 
Structures,'' 1997 ed., Part 1: Provisions (FEMA 302), http://
www.bssconline.org/pdfs/fema302a.pdf]
    Mr. Neugebauer. Okay. That would be fine. My time is up.
    Mr. Moore. Thank you, Mr. Chairman. Some have alleged and I 
think we have made reference to this without--I guess we have 
mentioned the number, but HR 2020, Hurricane and Tornado 
Related Hazards Research Act Summary, and the Congressman here 
is one of the co-sponsors, as are many of the Members of 
Congress here in Texas, in Kansas, and other places where you 
would expect to have wind damage. And I guess I would ask all 
of you, if you have national associations--I know some of you 
certainly do--to contact your national association and ask some 
of the Members of Congress to sign on to this because if this 
gets passed, what it does, obviously--there is a handout back 
there somewhere as to the bill and shows the current bill 
sponsors on there--but it requires the Director of the Office 
of Science and Technology Policy to establish an interagency 
group to be responsible for the development and implementation 
of a coordinated hazard reduction and research development and 
technology transfer program to achieve major measurable 
reductions in losses within 10 years. And it is interesting to 
me to hear representative Shofner from the insurance industry 
here talk about the need for stricter code standards. And 
sometimes people get upset when Congress or other governmental 
agencies mandate additional regulations or requirements, but, I 
mean, there is, maybe we have to balance it out and work it out 
here. By the same token, I guess, we would, I think, really 
like to see--this is certainly not a shot at Mr. Shofner--we 
would like to see the insurance industry moving in this area 
and doing their own research as well, coming up with answers to 
some of this. And if the information is available and it does 
warrant a reduction in premiums for insurance, then if the 
insurance industry recognizes and conveys the information to 
the homeowner, or other people, that you are going to get a 
reduced premium if you do these things in construction or 
retrofitting, then it might well be worth it and we all save 
money and more importantly, lives, because we can replace 
property, but we can't replace lives. Any other comments on 
that? I'm not trying to lecture here. I'm just--we are having a 
discussion, I guess.
    Dr. Kiesling. I would simply repeat my earlier point that 
any incentive is highly significant in terms of improvements. 
And we've seen where over and over, shelters and other things, 
where any time we can offer an incentive of any type, be it in 
financing, be it in cost reduction of operation, participating 
in the initial cost, whatever it is--another tax abatement is 
working pretty well in some areas, where say the cost of 
improvement is not taxed and so forth--and so I think whatever 
can be used--I think maybe what may be more significant than 
the dollar value of that is the educational value of letting 
the customer and the homeowner know that there is a benefit to 
their making that investment.
    Mr. Moore. Mr. Chairman? Any questions.
    Mr. Neugebauer. You know, we are having this dialogue, and 
as I was reading the testimony, a couple of things kind of 
started crystallizing for me. As we look at the mitigation 
aspects of it, we have life and we have property and in 
Ernie's, Dr. Kiesling's safe house or safe room, you know, the 
primary emphasis there is life. And because in a major tornado, 
I don't know what, and maybe you have done some testing on 
these reinforced concrete houses, how much that structure 
survives in a tornado. In a hurricane, though, the structural 
aspects of it seem to be easier to mitigate, are more 
mitigatable than, you know a category 4-5 in a tornado. So you 
begin to put that research together.
    Do you see different goals and objectives in the hurricane 
side as you are doing the tornado side? Obviously, up to a 
certain level of winds, on the perimeter of the tornado, you 
are dealing, you know, with the same wind issue. Are there 
different goals in some ways there?
    Dr. Kiesling. Well, certainly there are differences and I 
would suggest that in tornado regions, perhaps more important 
than loss of life is the reduction in anxiety. Because when you 
look at the statistics, the number of deaths from tornadoes is 
significant certainly, and we want to save those lives, but I 
think a much greater cost might be the anxiety and the loss of 
productivity, the health problems and so forth created by the 
anxiety. And so I think that is a strong justification for the 
safe room. Whereas in a hurricane region, it is much more of a 
reality that it is going to occur. And I think there are 
differences in requirements and design criteria and we have a 
long ways to go in optimizing the designs of buildings and 
shelters for the particular application. Shelters have not been 
popular until recently in hurricane regions and so I think we 
will see a lot of evolution there in the next few years. I am 
walking all around your question, but I--certainly there are 
many similarities and differences, but I think the objectives 
are somewhat different in the economics of it because of the 
higher probability of occurrence in hurricanes.
    Mr. Neugebauer. Dr. Meade. 
    Dr. Meade. Well, you simply have much more time to 
contemplate the hurricane than you do the tornado and so people 
know about advancing hurricanes usually 48 hours, 72 hours 
beforehand and so all kinds of actions are taken to prepare 
themselves. As Dr. Kiesling was pointing out, the really 
frantic, last-minute preparations that are taking place for a 
tornado and you are basically trying to save lives if it is 
bearing down hard enough.
    Mr. Neugebauer. Yeah, I was just thinking that, and this is 
in very simple terms, so if I live on the coast, what I am 
thinking is I am working at my house and I'm nailing up the 
shutters and I'm putting the plywood up there and really what I 
am worried about is--I'm going to evacuate--what I am worried 
about is when I come back, you know, how much of my personal 
belongings or my home is going to be intact?
    Dr. Meade. But you can do that because of the nature of the 
events, right.
    Mr. Neugebauer. But with a tornado, I only really have one 
thing on my mind and that is my personal safety, you know, 
because, as Ernie says, it is a quick event, it is going to be 
intense, most likely, and then it is going to be over and I 
would think that most people, when they go to a tornado 
shelter, are not worried about whether their house is going to 
be--I mean it's certainly a thought, but they are more 
concerned at that moment of their personal safety.
    Dr. Meade. Right. The economic losses from tornadoes is 
still quiet significant. Again, whatever differences between 
mine and Mr. Shofner's testimony can only be indicative of the 
difficult state of the data on this problem, but the estimated 
annualized losses of hurricanes are more than $5 billion a year 
and those for tornadoes only were at $1 billion a year so it is 
still a big number.
    Mr. Neugebauer. Still a big number.
    Dr. Bienkiewicz. I would like to make a comment that the 
majority of tornadoes are not extremely strong so if you look 
from a statistical point of view, we could reduce the amount of 
damage of tornadoes. I took part in a field trip last year in 
Kansas. Saw several tornadoes, hundreds of tornadoes, and some 
of them seemed to be not very strong, but nevertheless damage 
was quite significant. We look to develop new construction as 
well as old construction. Old construction, a lack of 
connecting structure to foundation or connecting roofs to 
walls--well, I won't get off on that. But then there is new 
construction, new developments and the issue of soft floor, the 
issue of additions and maybe last-minute modifications of 
construction and then we can build a room that can stand 
internal pressure like that in the process. Then we notice some 
problems with buildings that seem to be engineered, they seem 
to have flaws in design. So I think that we need more data 
resulting, documented data resulting from event investigations. 
We can learn a lot. There are some designs which are used in 
the whole country and you can see that under this one extreme 
condition, you can see the weak spots. So I see similarity in 
our efforts to reduce damage as we consider hurricanes or 
tornadoes, but not extreme, but those which occur most quickly.
    Mr. Moore. I don't know that I have as many questions as 
another comment and if it provokes anything we're going to stop 
for a minute, but we talk in Congress a lot about values and 
how we value education, we value our troops, and we value all 
this and that. What I usually find is we really spend our money 
where we really believe our values are, not just what we talk 
about. And certainly life is important. I think all of us 
acknowledge that, protecting human life from unnecessary loss 
of life in situations like this. And early warning can 
certainly aid in reducing the loss of human life in situations 
where there is a tornado and these weather radios that have 
come out recently, those--I mean, they cost $20 or something. 
If people have those and can get the information immediately, 
they can take shelter if they have shelter in their homes or 
wherever they are living. And obviously there is an education 
component to all this and many people in the population now 
understand what they need to do to protect themselves and that 
is really cost effective that measures can be taken to protect 
life.
    Beyond that, I think we have discussed here today that 
there are some things in construction, new construction and 
retrofitting, that we can do that will fortify and strengthen 
homes or building structures. That again is going to protect 
life and property.
    And it is sort of frustrating here because we know what 
needs to be done and I think we just kind of need to make this 
happen, legislation or something similar to this in Congress 
that will get the study done to gather the data that needs to 
be provided to the insurance industry to give some incentives 
back to people and maybe, you know, the Congress can hear and 
our colleagues, we can talk about other things that we can do 
as far as incentives. But it does come down to, as one of you 
said, to money in a lot of situations. We just need to say that 
we value the things we're talking about here today and we're 
willing to make a commitment, a reasonable commitment, to spend 
some funds to make sure that these things are protected, life 
and property, and most of all life.
    That is my closing statement. I am not trying to shut this 
down. I am inviting comments, if other people have comments, or 
the Congressman as well.
    Dr. Meade. I would re-emphasize need and now different 
hazards--we deal with a lot of floods and people know that it 
is more predictable that you are going to get flooded if you 
live in a flood plain. Nevertheless people continue to live 
there and we continue to have a lot of development there----
    Mr. Moore. Because you can buy homes cheaper there.
    Dr. Meade. Exactly. There are different opinions and I mean 
there are lots of other discussion going on in Congress about 
why those incentives are all messed up, but even still, in a 
situation where people know about the hazard, even still they 
don't take steps and there is plenty of technology to solve the 
problem, but again, they need to be incentivized.
    So there is an analogy here certainly that living in 
certain parts of the country, you know that you are subjected 
to wind hazards and that you have a reasonable probability of 
suffering under that, but you need to be incentivized still to 
take action to solve that problem for yourself.
    Mr. Shofner. I just would like to add that that is one of 
the hurdles that insurance companies face in that Texas is 
unique because it's what I call a triple-threat state.
    There's a handful of other states that have the same deals, 
but in Texas we're exposed to hurricanes, tornadoes, and hail, 
which a lot of states are not. And so with hurricanes there is 
a lot of research done as far as being able to determine 
possibly when our coastline may be hit from a hurricane and 
what size and what have you, but it is very difficult for 
insurance companies and actuaries to determine if a tornado 
were to pop up, where it might be and when the next hailstorm 
is going to come up so those are the things that I know they 
are trying to work on.
    Mr. Moore. Well, we've got quite a coastline in Kansas, but 
fortunately we don't have too many hurricanes.
    Mr. Neugebauer. Any other final comments by any of the 
panelists?
    Dr. Kiesling. We'd simply plead for patience because it is 
a very, very complex problem and certainly building the 
research infrastructure to address that problem is not a short-
term process. For example, we are graduating very few people 
who are capable of assessing the hazards and the risks in their 
areas and then come up with the solutions for it. And then it 
takes a long time to build an academic program to do effective 
research. I think again the action that you are contemplating 
can be very, very significant there because an important 
element in developing programs and in attracting faculty to 
them and so forth, an important consideration is the prospect 
of long-term funding. I don't know a person that can go into 
the research business without some hope that there is going to 
be a future in that area. So it is going to take a long time 
and we can best probably address the quality issues in housing 
through building codes, but that too is a slow process and, as 
you pointed out, I think we're replacing only about one percent 
of our housing inventory per year. So the results are not going 
to be coming quickly, but we must take the first steps and 
begin to turn it around. I think in terms of curbing the 
damages, rather than reversing them, because it is a long-term 
process that is not going to be easy to solve.
    Mr. Moore. Randy, may I have one more minute.
    Mr. Neugebauer. Sure.
    Mr. Moore. Mr. Chairman said was that your final statement 
and I said well, maybe it was, but I would like to just kind of 
sum up here for myself. I'm certainly not trying to shut this 
down again. I just want to thank the Congressman here for 
convening this very, very important hearing. I want to thank 
our witnesses. All of you have been very good, to my knowledge, 
about what happens here and what needs to happen in the future. 
I really mean that sincerely and I appreciate your expertise 
that you shared with us here today and I appreciate the 
audience being here. Frankly, it's helpful to have the news 
media out because the extent that this kind of hearing is 
covered and the people in this area and around the country 
understand and know that there are things they can do to 
protect themselves is going to assist what we are trying to 
accomplish here. So again, thank you, Mr. Chairman.
    Mr. Neugebauer. Well, thank the Congressman from Kansas for 
coming and his interest in this issue. I would just close by 
saying that I appreciate all of the witnesses that came and 
took time out of your business schedules. I feel like we had 
the ``A'' panel today to discuss this issue. Obviously, many of 
you are recognized as being on the forefront of this very 
important research. I thank the folks in the audience that came 
and I hope that you found this discussion as interesting as I 
did. I think from my perspective, and I think I've stated this, 
is I think we need to move forward with a program and I think 
Dr. Kiesling summed up one of the important aspects, that it is 
a sustainable program so that we know how many dollars are 
going to be available for this kind of research and so if there 
is not an infrastructure in place, that that infrastructure can 
be put in place to sustain long-term research in that respect.
    I also believe very strongly that we are going to have to 
bring more private sector involvement into this process because 
in the final analysis, they are going to have to be the ones 
that build it and market it to people that are going to utilize 
it. I think we have to bring our friends in the insurance 
industry into this because they are--they have a risk, they 
have a financial interest in this, and I think that they can 
probably share some insight and help with some of the modeling.
    I heard at lunch today, talking about how do we model these 
events and to determine and to develop an economic model 
determining whether certain things are really economic or not. 
One of the things that I think makes this a difficult subject 
for commercialization is that people are insuring a risk or are 
spending money to mitigate a risk that may never actually 
materialize and people are more, in our country, are more into, 
I am interested in the problem that I have today. When you tell 
them what the odds are that they are going to experience a 
tornado or odds are that they are going to experience a 
hurricane, you know, those odds are pretty low.
    And so there are a lot of dynamics here that I think have 
to be worked out, but I think certainly bringing the private 
sector to the table and bringing the insurance industry adds 
some additional information that is needed at this table. I 
look forward to working on some long-term solutions that make 
sense for our country and for our region. And so thank you and 
if there are not any other questions we are adjourned.
    [Whereupon, the Committee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Additional Material for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
